<html>
<title> - EXAMINING 21ST CENTURY PROGRAMS AND STRATEGIES FOR VETERAN JOB SEEKERS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 EXAMINING 21ST CENTURY PROGRAMS AND STRATEGIES FOR VETERAN JOB SEEKERS

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, JUNE 15, 2016

                               __________

                           Serial No. 114-73

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


         Available via the World Wide Web: http://www.fdsys.gov
                     
                                         
                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-184 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfd8cfd0ffdccacccbd7dad3cf91dcd0d291">[email&#160;protected]</a>                    
                     
                     
                     
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA RADEWAGEN, American Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA RADEWAGEN, American Samoa          Member
RYAN COSTELLO, Pennsylvania          DINA TITUS, Nevada
MIKE BOST, Illinois                  KATHLEEN RICE, New York
                                     JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                           
                           
                           C O N T E N T S

                              ----------                              

                        Wednesday, June 15, 2016

                                                                   Page

Examining 21st Century Programs And Strategies For Veteran Job 
  Seekers........................................................     1

                           OPENING STATEMENTS

Honorable Brad Wenstrup, Chairman................................     1
Honorable Mark Takano, Ranking Member............................     2

                               WITNESSES

Honorable Michael H. Michaud, Assistant Secretary, Veterans' 
  Employment and Training Service, U.S. Department of Labor......     3
    Prepared Statement...........................................    22
Mr. Eric Eversole, President, Hiring Our Heroes, U.S. Chamber of 
  Commerce Foundation............................................     5
    Prepared Statement...........................................    32
Mr. Terry D. Howell, Chief Petty Officer, USCG (Ret), Senior 
  Director, Military.com.........................................     7
    Prepared Statement...........................................    35
Mr. LeRoy Acosta, Assistant National Legislative Director, 
  Disabled American Veterans.....................................     9
    Prepared Statement...........................................    38
Mr. Greg Call, Head of Veterans Program, LinkedIn................    10
    Prepared Statement...........................................    42

 
 EXAMINING 21ST CENTURY PROGRAMS AND STRATEGIES FOR VETERAN JOB SEEKERS

                              ----------                              


                        Wednesday, June 15, 2016

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:37 p.m., in 
Room 334, Cannon House Office Building, Hon. Brad Wenstrup 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Wenstrup, Zeldin, Costello, 
Takano, Rice, and McNerney.

          OPENING STATEMENT OF BRAD WENSTRUP, CHAIRMAN

    Mr. Wenstrup. Good afternoon, everyone. The Subcommittee 
will come to order. I want to thank you all for joining us here 
today for our hearing entitled ``Examining 21st Century 
Programs and Strategies for Veteran Job Seekers.''
    I am excited for today's hearing, which is designed to be a 
continuation of the discussion we had at the Subcommittee 
hearing last month, where we examined how we can help veterans 
find careers in the tech industry, but today, we will focus 
more on the general veteran job seeker, and how we can work 
together in a more holistic approach to connect them to 
meaningful careers across the economy.
    As I mentioned last month, the unemployment rates among 
veterans continue to decline or remain stagnant. But seeing as 
there is still an unemployment rate and lower workforce 
participation rate for our Nation's veterans of all 
generations, it is clear that more work still needs to be done.
    One issue that we have heard from transitioning 
servicemembers and veteran job seekers in the past is that when 
they throw themselves into the job search, they find that the 
process is often daunting, and finding a sustainable meaningful 
job is, in fact, a job in and of itself.
    I know that this is the case among all Americans as they 
try and enter the workforce after college, or at a certain time 
in their lives, but veterans often face a greater uphill battle 
when searching for a job in the civilian sector than what their 
civilian counterparts face. Often, due to the many avenues and 
platforms currently available in the job searching space, they 
are unsure where to even start the process of finding the best 
job for both themselves and their families.
    We have also heard concerns that veterans and transitioning 
servicemembers are often unsure as to how to facilitate the 
connections and networks they built during their military 
service to help them find a job outside the military.
    And lastly, one of the largest issues we continue to hear 
is that veterans are not always aware of how advantageous their 
military careers and skills can look on a resume for a civilian 
sector job. We need to help veterans articulate and advertise 
these skills in a way to prove that they are a competitive 
candidate for the job.
    So great strides have been made over the past several years 
to help the men and women who have worn the uniform to bridge 
this gap between their military experience and translatable 
skills for civilian jobs, but more work needs to be done at the 
Federal, State, and local levels to build this bridge in a more 
meaningful way, while also ensuring employers in the private 
and public sectors understand the advantages of hiring 
veterans.
    Further, while the unemployment rates have declined, the 
rate did increase over the past month for female veterans 
overall, and for post-9/11 males, which is a trend that is not 
new. And while it is unreasonable to believe that the 
unemployment rate will completely drop to zero overnight, we 
need to examine why women veterans have an overall higher 
unemployment rate than their male counterparts, and what we can 
do to work with groups like those testifying before us today, 
to continue to work at chipping away at the unemployment rates 
for all of those who have served.
    As we have said in the past, it is also important that we 
discuss how employers can better recruit servicemembers for 
jobs earlier on in their transition to lessen the likelihood of 
a lapse in employment and a steady income as they leave the 
military. The best way to beat unemployment is to ensure that 
there is not even the briefest of windows for it to occur in 
the first place.
    I hope that with the expertise of the witnesses before us 
today, we can have a meaningful conversation about how to 
address these concerns; the continued overall unemployment 
rates for veterans; and feedback we have heard over the years 
from veterans and other stakeholders to improve the overall 
experience and outcomes for veteran job seekers.
    I will now yield to my colleague, Ranking Member Takano, 
for any opening statement he may have.

        OPENING STATEMENT OF MARK TAKANO, RANKING MEMBER

    Mr. Takano. Thank you, Mr. Chairman, for holding this 
hearing today to talk about veteran employment in our 
contemporary economy.
    Veteran unemployment is at a historic low at 3.4 percent 
overall, down from 5 percent this time last year, and down from 
a high of 9.9 percent just 5 years ago. Veteran unemployment 
has remained lower than, or just about equal to the national 
average for 24 months.
    This excellent news is thanks to the combined efforts of 
the administration, this Committee, public and private sector 
employers, nonprofit advocates, and, of course, thanks to the 
hard work and determination of veterans themselves. And while 
we have made significant progress, we all need to do more to 
make sure that every veteran job seeker is able to find work 
that pays well, and is aligned with that veteran's strengths.
    This is particularly the case for women veterans and 
younger veterans, as we will hear today. As the fastest-growing 
military cohort, women veterans face a persistently higher rate 
of unemployment than men, although the reasons for this 
difference are not fully understood. Given that approximately 
200,000 women are expected to leave the military over the next 
5 years, it is imperative that we identify and implement a 
strategy to better support women veterans in their effort to 
find employment.
    Post-9/11 veterans under the age of 25 also face an 
unemployment rate that is higher than the national average. A 
variety of factors contribute to this problem. Our Subcommittee 
Members on both sides of the aisle want to listen and discuss 
ways to improve outcomes for younger veterans.
    We also know that military spouses continue to face 
difficulties in finding the right job and keeping it when they 
have to move. I would appreciate your recommendations to 
address this challenge and improve employment outcomes for 
military spouses.
    As our military prepares for a significant drawdown in the 
coming years, it is critically important that we have in place 
employment programs and services that effectively help 
transitioning servicemembers find satisfying and stable 
civilian jobs. I am looking forward to listening to our 
witnesses' testimony regarding their efforts in this matter, as 
well as their thoughts on how the Federal Government can help 
improve job outcomes for all veterans.
    I want to thank each of these witnesses for their 
commitment to connecting transitioning servicemembers, 
veterans, and military spouses, with high-quality civilian 
jobs.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Wenstrup. Thank you, Mr. Takano.
    I now want to recognize our first and only panel of 
witnesses today. With us today, we have the Honorable Michael 
Michaud, Assistant Secretary For the Veterans' Employment and 
Training Service for the U.S. Department of Labor; Mr. Eric 
Eversole, Senior Adviser and President for Hiring Our Heroes at 
the U.S. Chamber of Commerce Foundation; Mr. Terry Howell, 
Senior Director for Military.Com; Mr. LeRoy Acosta, Assistant 
National Legislative Director for the Disabled American 
Veterans; and Mr. Greg Call, Head of LinkedIn's Veteran 
Program.
    Assistant Secretary Michaud, it is great to have you back 
with us again. Let's begin with you. You are now recognized for 
5 minutes for your opening statement.

           STATEMENT OF HONORABLE MICHAEL H. MICHAUD

    Mr. Michaud. Good afternoon, Mr. Chairman, Ranking Member, 
and distinguished Members of the Committee. I am very excited 
to be here this afternoon to tell you what we are doing at the 
Department of Labor. I appreciate the opportunity to report on 
the Department of Labor's efforts to provide better services 
that led to improved employment outcome for our Nation's 
veterans.
    Through the collective and sustained efforts and 
partnerships with many public, private organizations, the 
employment situation for veterans continues to improve, and 
veterans' unemployment rates are trending down. The 
unemployment rate for veterans has fallen from a high of 9.9 
percent in January 2011, to 3.4 percent in May of 2016. It 
remains lower than the nonveterans' unemployment rate of 4.4 
percent in May of 2016.
    The charts displayed before you show that this considerable 
improvement also applies to veterans age 18 to 24, and to 
female veterans. While the overall veterans' unemployment rate 
continues to trend lower, we at the Department of Labor will 
not rest as long as any veteran needs assistance finding 
meaningful civilian employment. To that end, VETS has pursued 
six integrated lines of efforts.
    First, we engage our servicemembers before they are 
transitioning into civilian life. We continue to improve the 
Department of Labor's employment workshop as part of TAP to 
ensure it remains relevant to the needs of transitioning 
servicemembers. We have expanded the ability of servicemembers 
at risk of successful transition to meet with DVOPs, and are 
working closely with DoD to connect them with the American job 
centers before they leave active duty.
    We are actively connecting our employer network to DoD 
through its Skill Bridge Program that allows servicemembers 
meeting certain qualifications to participate in civilian jobs 
and employment training in their last 180 days of active duty. 
VETS is also engaged with Employer Support of the Guard and 
Reserve, ESGR, programs to assist Reserve servicemembers when 
connecting to their local American job centers so that they can 
obtain local employment while still retaining the ability to 
support the mission of their assigned units.
    Second, we are providing a lifetime of employment support 
for our veterans, for all veterans regardless of where they 
serve. Jobs for Veterans State Grants support veterans-focused 
staff in the public workforce system in all 50 States and four 
territories through American job centers in local communities. 
We have improved our intensive service rates to nearly 90 
percent nationwide to ensure that our veterans receive the help 
they need to connect to the civilian workforce, and I am 
pleased to report that the employment retention rate for JVSG 
participants has increased to 82 percent.
    Third, we are engaging and mobilizing communities to 
establish collective partnerships to better support our 
veterans where they live. VETS is working with a variety of 
national base constituencies, including the National 
Association of State Workforce Agencies, the National Governors 
Association, and the National Conference of State Legislatures, 
to address local employment obstacles like the unique 
requirements to obtain professional licenses and credentials. 
We are also partnering with the VA in their MyVA Community 
Initiative to encourage community-driven solutions for 
veterans, and to ensure that the public workforce provides the 
employment foundation for these communities.
    Fourth, we continue to work to end homelessness among our 
veterans by providing services that help them establish a 
stable, long-term employment. And I am happy to note that the 
President supported our request for an additional $12 million 
in fiscal year 2017 to fully fund our homeless veterans 
reintegration program in recognition of its measurable impact.
    Beginning in July, we will require grantees serving 
homeless veterans to co-enroll participants in the public 
workforce system through their local American job centers, and 
we are working with faith-based organizations to further expand 
the resources available to these important, but vulnerable 
population.
    Fifth, we are addressing the skill gap between veterans and 
employers who are seeking employees with industry-recognized 
credentials and helping veterans receive occupational, 
classroom, and on-the-job training. On June 1, we published the 
results of a 2-year study with the National Governors 
Association on steps States can take to accelerate professional 
licensing and industrial credentials for veterans. We continue 
to work with DOL's Office of Apprenticeship to encourage 
companies to establish registered apprenticeships that can help 
veterans earn while they learn in new careers.
    And sixth, we have dramatically expanded employer outreach 
to make it easier for companies to find and hire veterans by 
leveraging Federal, State, and local resources. VETS Office of 
Strategic Outreach, fully manned just a year ago, is now 
working with nearly 600 companies across the country on active 
veterans hiring campaigns. This team provides valuable bridges 
between the national and regional employers who are eager to 
hire veterans and workforce development staff at the AJCs, who 
build local employment relationships and assist veterans in 
finding meaningful employments in their communities.
    We also rolled out our Veterans.Gov Web site on May 1. 
Veterans.Gov was built in response to the veterans and 
employers' feedback. It is a critical resource that will help 
connect veterans to civilian employment and help connect 
employers to job-seeking veterans through the public workforce 
system.
    VETS is committed to reducing veterans' unemployment 
nationally by helping each veteran through individual services. 
And by bringing together our partners for this important 
mission, VETS is leading the way in helping our veterans find 
meaningful civilian employment today and tomorrow.
    So Mr. Chairman and Ranking Member Takano, Members of the 
Committee, thanks again for inviting me here today. I look 
forward to your questions. Thank you.

    [The prepared statement of Michael H. Michaud appears in 
the Appendix]

    Mr. Wenstrup. Thank you, Mr. Secretary.
    Mr. Eversole, you are now recognized for 5 minutes.

                   STATEMENT OF ERIC EVERSOLE

    Mr. Eversole. Thank you, Mr. Chairman and Ranking Member 
Takano. My name is Eric Eversole. I am the president of Hiring 
Our Heroes, a program of the U.S. Chamber of Commerce 
Foundation, and we are honored to be here to testify about the 
tremendous value that veterans and military spouses bring to 
our workforces across America.
    I think before we really start talking about the 
``Examining 21st Century Programs and Strategies for Veteran 
Job Seekers,'' I think it is also important to talk for just a 
couple of minutes about the tremendous progress that has been 
made in this space. As both the Ranking Member and the Chairman 
noted in their opening comments, there has been tremendous work 
done in this space, and that work should help guide us as to 
what we need to do to continue to serve the veterans and 
military spouses that are continuing to struggle, because there 
are segments of that veteran and military spouse population 
that are struggling, they haven't found the opportunities they 
have desired, and that has created some real challenges, both 
in the near term and the long term, to ensure that those young 
men and women who raise their hand are delivered the promise of 
better economic opportunities once they have ended their 
military service.
    One of the things that we have learned from, from really 
the outset of our efforts from a program perspective, we have 
hosted more than 1,000 hiring events in the last 5 years, and 
we have done that in every State in the country, the 
territories, overseas locations, and really, pretty much 
anywhere where we can find a veteran or military spouse who is 
struggling.
    And the one thing we have learned from day 1 of our efforts 
is that it is a community effort. It is a collaboration between 
both the private sector and the public sector, between 
nonprofits and companies, to help ensure that we are making 
meaningful connections to those young men and women who are 
looking for those opportunities.
    There is no magic bullet in this space. It takes a 
community effort, and it is the collective efforts of those 
organizations and groups like Department of Labor VETS and the 
Federal agencies as well as the State and local agencies, 
nonprofits, that are really going to make a difference in this 
space. And that is where we have seen the most success.
    The other thing that we have really learned, is that you 
have to avoid taking the ``Field of Dreams'' approach to 
helping veterans and military spouses find meaningful 
employment opportunities. You can create great job 
opportunities with lots of pay, but there are a lot of young 
men and women who don't understand fully what real economic 
opportunity looks like in this country.
    They come from those low- and middle-income families, like 
my family, as a first-generation college student from the 
midwest, who really have one of two options back in your 
hometown. If you want a better life, you are going to do one of 
two things: You are going to join the military or you are going 
to go to college.
    But a lot of these young men and women, after that 4 years 
or 6 years or 8 years of military service, still don't know 
what that economic opportunity looks like. They still need that 
extra hand to find that meaningful opportunity, because they 
know what service is, they know what commitment is, they know 
what hard work looks like, but they don't necessarily have the 
connections or the background that is going to help them take 
that tremendous experience and then sell it to the civilian 
sector.
    And that really leads to my third point, which I think is 
equally critical: Digital programs play an incredibly important 
role in this space because they have the ability to connect 
servicemembers and military spouses with great employers at a 
moment's notice, regardless of where they are stationed in this 
world.
    At Hiring Our Heroes, we have created a number of digital 
programs, like our Virtual Job Scout, our resume engine, our 
Career Spark for Military Spouses, that helps to make those 
meaningful connections. And we have seen tremendous success to 
be able to reach people, whether they are in Germany and 
looking for a job in the United States, or they are located in 
California and they are looking for a job in northern 
California.
    Regardless, we can make those connections, but you still 
have to have a ground game. You still have to have people that 
are involved and are going to help those young men and women 
who don't know what they don't know to take that next 
meaningful step. We have found our programs to be most 
effective when we integrate them with the on-the-ground 
approach, and we have seen good success.
    With that said, I will yield the remaining amount of my 
time and look forward to the panel's questions. Thank you.

    [The prepared statement of Eric Eversole appears in the 
Appendix]

    Mr. Wenstrup. Well, thank you very much.
    Mr. Acosta, you are now recognized for 5 minutes. I am 
sorry, Mr. Howell is next.
    Mr. Howell, you are now recognized for 5 minutes.

                  STATEMENT OF TERRY D. HOWELL

    Mr. Howell. Thank you very much. Thank you, Chairman 
Wenstrup and Ranking Member Takano, and the other Members of 
the Subcommittee, for inviting us here today to talk about this 
important subject.
    My name is Terry Howell, and I am the Senior Director for 
Editorial Operations and Strategic Alliances for Military.Com. 
I joined Military.Com in 2003 after serving the Coast Guard for 
20 years. In 1999, Military.Com was founded with the premise 
and the purpose of connecting servicemembers, veterans, and 
their families with the benefits of service. Those benefits 
include not just the Federal and State benefits, but discounts, 
scholarships, and other opportunities that come with having 
served their countries. Since we were founded, we have grown to 
over 10 million members, and we have 7 million unique visitors 
a month.
    In 2004, we joined forces with Monster Worldwide, and in 
doing so, we were able to team up together to take on quite a 
few projects for the government. We have worked on 
transitioning employment programs and online tools for the 
Department of Defense, the Veterans Affairs, private 
corporations, and State agencies. Over the years, we have 
developed several online tools to help connect employers and 
veterans, and aid in the transition process.
    Our most widely used tool is our Military Skills 
Translator. As we referred to earlier, technology is a big part 
of it, though it is not the only answer. We are very proud of 
the fact that we have created the skills translator that is 
being currently used by over 60 different companies. We share, 
at no cost, with nonprofit organizations like the American 
Legion and the Veterans of Foreign Wars, and we also provide it 
for organizations like the Northern Virginia Technology 
Council, who use it, teamed up with junior colleges in their 
area and other means to help provide opportunities for veterans 
to find jobs within the high-tech fields.
    We recently made significant changes to improve people's 
awareness of what we are doing in these areas. We have created 
new tools to help people apply for jobs online or at the 
desktop, whereas before, it was kind of a complicated process. 
We have simplified these processes to make it simpler and 
easier for veterans to apply for jobs.
    We have also added a new skills--or correction, we will be 
launching a new transition app which essentially takes the TAP 
process and puts it in a mobile device giving them personalized 
checklists and reminders and notifications through their device 
of when they need to reach certain milestones, certain 
accomplishments they have to hit before they are ready to 
transition. And we are very proud of that tool. It will be 
launching hopefully in the next few weeks.
    Let's see, we also, each year, create the Veteran Talent 
Index. This is an annual report that kind of gives us a 
snapshot of what--not only the BLS data, but also surveys of 
what employers and servicemembers and veterans have to say 
about the veteran experience as far as in the job searches and 
transition. In fact, let me--I did bring a copy with me. I 
would like to submit it for the record with your permission, 
sir. Thank you.
    So one of the things that came from our study is that--and 
this may seem like a no-brainer--but employers who actually 
commit to hiring veterans have a much better record of hiring 
and retaining veterans than those that don't. And what I mean, 
is it is easy for a company to say they want to hire veterans, 
but we have found that companies who truly commit to it by 
installing veteran-specific hiring practices, bringing on tools 
and interfaces on the Internet that are specifically catered to 
veterans, and building the culture within their companies and 
support systems within their companies, have a much higher rate 
of success, especially in the retention area than those that 
don't.
    So I will just wrap by saying it is our belief that there 
is no single solution. It has already been said, right. But the 
problems are as diverse as the members of the veteran community 
that we serve. So it would be foolish of us to sit here and say 
that my skills translator is the only thing that is going to 
work. And it is foolish for anybody to say one thing.
    We have found that it is a collaborative effort, that works 
together. Of all these organizations here at the table today, 
the Federal Government and Congress, have brought us a long 
ways down the road to success in this area. But it is not time 
to lighten up on the pedal. There is still--again, as mentioned 
earlier, there is women veterans and younger men veterans, 
post-9/11 veterans, who are currently still suffering from lack 
of employment. If we were to lighten up now based on our 
successes, we wouldn't be seeing the job all the way through.
    So it is my belief that, through innovation and 
collaboration, we continue to move this forward. And when I 
speak about collaboration, we have worked several times with 
the Federal Government to come up with some very innovative 
fixes, but it is also going to require collaboration between 
the private sector--or I am sorry. It is going to take a lot of 
collaboration between all the private sectors in the room too, 
because it can't be just done in one area.
    So at this point, I thank you for inviting me to speak 
today, and I conclude my statement, and I am open to any 
questions you may have. Thank you very much.

    [The prepared statement of Terry D. Howell appears in the 
Appendix]

    Mr. Wenstrup. Thank you, Mr. Howell.
    Mr. Acosta, you are now recognized for 5 minutes.

                   STATEMENT OF LEROY ACOSTA

    Mr. Acosta. Thank you. Chairman Wenstrup, Ranking Member 
Takano, and Members of the Subcommittee, DAV appreciates the 
opportunity to provide testimony for this hearing to outline 
just a few innovative and effective employment transition 
programs. We look forward to working with this Subcommittee to 
ensure that the men and women who stood up for America have the 
tools, resources, and opportunities that they need to 
competitively enter the job market and secure meaningful 
employment.
    In 2014, DAV empowered America's veterans by establishing a 
national employment program and committed more than $800,000 to 
its startup so the program could begin work immediately. DAV's 
employment program connects transitioning active duty, Guard 
and Reserve members, veterans and their spouses, with employers 
nationwide.
    Through our partnerships with Recruit Military and Veteran 
Recruiting, DAV has sponsored more than 130 all-veteran career 
fairs in cities nationwide, as well as three virtual events to 
connect veterans with employers who are committed to hiring 
them. Visitors to Jobs.DAV.Org will find a schedule of future 
all-veteran career fairs. In addition, our job search database 
has over 250,000 employment opportunities. Our Web page, 
Jobs.DAV.Org, averages about 15,000 hits per month.
    Since the inception of DAV's employment program, over 
54,000 participants have connected with more than 7,000 
exhibiters, and this has led to nearly 16,000 job offers. 
Outside of the DAV, another program specialized in military-to-
civilian reintegration is a nonprofit San Diego-based National 
Veterans Transition Services, Incorporated. NVTSI emphasizes 
the need to resocialize transitioning veterans via a reverse 
boot camp.
    NVTSI's signature 3-week reboot workshops conducted across 
the Nation are innovative, evidence-based, and intensive. A DAV 
member that participated in reboot last year commented that 
reboot helped ease their focus on transition from military to 
civilian life by providing purposeful time to make deliberate 
career choices, and to build a strong network to create a 
program for life beyond the military.
    The third program I will discuss is concentrated on 
reducing unemployment for women veterans. The nonprofit New 
York City-based Operation Reinvent was founded in 2013. 
Operation Reinvent is dedicated to providing expert guidance 
and resources to help transitioning military women identify 
career paths that suit their skills, education, goals, and 
interests. An Operation Reinvent workshop occurred last week at 
the soldiers support centers at Fort Bragg, North Carolina, and 
Fort Campbell, Kentucky. Fifty women soldiers attended each 
location. The first day of the workshop was Webcast to both 
locations in realtime from CBS studios in New York City. 
Nationwide Webcast in each time zone are being planned.
    Mr. Chairman, DAV appreciates the opportunity to provide 
testimony. I would be pleased to address any questions you or 
Members of this esteemed Committee may have regarding the 
topics I have covered today. Thank you.

    [The prepared statement of LeRoy Acosta appears in the 
Appendix]

    Mr. Wenstrup. Thank you very much.
    Mr. Call, you are now recognized for 5 minutes.

                     STATEMENT OF GREG CALL

    Mr. Call. Chairman Wenstrup, Ranking Member Takano, and 
Members of the Subcommittee, thank you for inviting me to 
testify today. My name is Greg Call. I am the head of 
LinkedIn's Veterans Program. LinkedIn is a professional network 
with over 433 million individuals around the world, 128 million 
in the United States, and over 2.1 million veteran and military 
members.
    LinkedIn's vision is to create economic opportunity for 
every member of the global workforce by providing networks, 
insights, skills needed to succeed in the workplace. To achieve 
that vision, we are building the world's first economic graph, 
a digital map of the global economy that includes every member 
of the global workforce, their skills, all open jobs, all 
employers, and all educational institutions.
    In my oral remarks, I will focus on two things: First, I 
would like to talk about my own story as a veteran, and the 
experience that I had after leaving the Marine Corps; second, I 
will talk about LinkedIn's Veterans Program, which may be 
impactful for our veterans as they transition from military 
service to civilian professional life.
    I became a Marine officer in March 2008 at the age of 28. 
During my service in the Marine Corps, I had the privilege of 
leading hundreds of Marines in combat environments, and on the 
home front. The young Marines that I led inspired me every day 
with their can-do attitude and their commitment to duty, 
service, and sacrifice. I transitioned out of the Marine Corps 
in 2012 after two deployments and over 4 years of honorable 
service.
    During this transition, it was extremely important for me 
to keep my mission-driven life that I loved about being a 
Marine officer. The Marines made me the individual that I am 
today. However, like many transitioning servicemembers, I had 
no civilian professional identity or professional network after 
leaving the military. LinkedIn allowed me to reinvent myself as 
a veteran entrepreneur where I founded two tech companies. It 
empowered me to connect with people and organizations to 
support my new mission in life.
    In my current role, one of the projects that I led was our 
first annual report on veterans. Our team analyzed the 
professional experience, skills, and education of the 2.1 
million military personnel and veterans that are members of 
LinkedIn, as well as veteran employer data. Among other 
insights, the report demonstrates that today's veterans 
represent in-demand talent, and that more than 186,000 veterans 
identify themselves as executives, vice presidents, or owners 
on LinkedIn.
    We recognize that according to the Bureau of Labor 
Statistics, the unemployment rate for Gulf War II-era veterans, 
our youngest generation of veterans, is higher than the 
national rate, at 5.8 percent versus under 5 percent for the 
general population. And the numbers for Latinos and African 
Americans as well as women veterans are higher. So there is 
more that we can do, and it is one of the reasons why I really 
appreciate the opportunity to talk to you more about LinkedIn's 
Veterans Program.
    Our Veterans Program is designed to set veterans up for 
success and transition, and close the gap between military 
service and civilian employment by empowering veterans to build 
professional identities, strong networks, civilian careers, and 
workplace skills.
    We do this by the following: One, providing access to a 
network of 2.1 million military personnel and veterans on 
LinkedIn; two, helping veterans build a digital professional 
profile or a living expression of their experience, education, 
and skills; three, providing a 1-year premium service 
subscription to LinkedIn; and lastly, providing a 1-year 
subscription to Lynda.Com, a leading online learning platform 
that helps anyone learn business, technical, or creative 
skills.
    Lastly, I just want to highlight one key recommendation for 
the Subcommittee. LinkedIn has worked with the Transition 
Assistance Program to assist servicemembers with access to 
post-military opportunities. Among other things, we recommend a 
stronger integration of professional tools like LinkedIn before 
a servicemember departs from the military.
    Imagine if a servicemember has built an online civilian 
profile, has support from mentors, and access to our network 
while in service. They would be better positioned to identify 
skills gaps and to connect with recruiters long before they 
transitioned from the military, and would be set up for success 
in their post-military career.
    We at LinkedIn stand ready to work with Congress to expand 
opportunity for every veteran in the United States. This is our 
duty, our mandate, and fundamentally tied to our mission and 
vision at LinkedIn. Thank you.

    [The prepared statement of Greg Call appears in the 
Appendix]

    Mr. Wenstrup. I thank you all for your remarks. And I am 
now going to yield myself 5 minutes for some questions. But 
first, I would like to make some comments. I really do 
appreciate the testimonies that we have heard here today, and I 
would like to comment on them, if I may, from this position.
    You know, Mr. Eversole, I think you brought up a good 
point. You know, many of our young veterans, as they get out, 
use their GI bill, and many of them go and use it for a 4-year 
degree, and that is great. But that is not for everybody. And I 
am concerned in this country we have made that too much of the 
standard that the American dream doesn't exist unless you get a 
4-year degree. And I would disagree; neither of my parents have 
a 4-year degree, and my guess is yours might not either. And 
what we can accomplish through work and the opportunity to grow 
isn't always for everyone to get a 4-year degree. So I 
appreciate what you had to say in that.
    And Secretary Michaud, I appreciate the work you have done 
with VETS.GOV. I think it has come a long way and certainly an 
opportunity for so many. And I appreciate the reaching out to 
faith-based organizations. You know, these are people 
operating, really, outside of religious beliefs, but as 
Americans trying to make things better for fellow Americans. 
And that is greatly appreciated.
    Mr. Howell, I want to comment on the importance of public/
private partnerships that we have to engage in, because we are 
going from basically being public to private, and in that 
transition should include both sides.
    And Mr. Acosta, I appreciate the work on transition. As a 
veteran, I have a little bit of concern with the word 
``reboot.'' As a veteran, I don't feel like I needed to be 
rebooted, because I am concerned that word by itself may 
detract somewhat from the decision that our young men and women 
are making to serve their country. I do not believe they need 
to be rebooted, but need to be transitioned.
    And that leads to what you had to say, Mr. Call, which was, 
you know, you are mission-driven, and that is what you want to 
continue to do. And I appreciate the opportunities for people 
to have a place to go to establish a mission and to drive that 
mission onward.
    So I think there has been very good testimony today from 
all of you, and I appreciate it.
    To questioning, what is the number one thing that this 
Subcommittee could do to improve opportunities for veteran job 
seekers? Looking at us, what we can do. And I would be glad to 
go down the line if we can. Mr. Secretary.
    Mr. Michaud. Thank you very much, Mr. Chairman. I know both 
you and the Ranking Member had talked about women veterans 
issues and how you compared it with men's issue. And here is, 
first, a comment on that and what the Committee might be able 
to do to help that.
    If you look at the chart comparing women veterans to female 
non-veterans, you can see in that chart that actually the 
female veterans' number is lower than the female non-veterans. 
I asked my staff how can we analyze what is happening with the 
women's veterans population?
    Number one, the women veterans tend to be younger, and they 
are more likely to be of minority status. At the same time, 
they are more likely to be enrolled in school while seeking 
employment than their male veterans counterparts. And when you 
look at the male veteran' counterparts, the bulk of the 
unemployment is actually in the higher age limit. So you really 
can't compare women veterans with male veterans, but when you 
compare women veterans in the same category as non-veteran 
women, you will see actually they are doing extremely well.
    One area where actually Congress can help, and it is one 
area that my staff had highlighted is Title 38, because at the 
time that Title 38 was passed into law, there were fewer women 
veterans. And right now, when you look at the definitions, it 
is different in different statutes. What would be very helpful 
is if you did a thorough analysis of Title 38, and actually 
bring it to sync the definition of women veterans. That would 
be very helpful as far as helping us out over at the Department 
of Labor VETS. Whether Congress does it or CRS does it, that 
would be extremely helpful.
    Mr. Wenstrup. Thank you. I appreciate that.
    Mr. Eversole. Thank you, Mr. Chairman.
    I think that one of the things that is absolutely critical 
is that we don't lose sight of the fact that there are veterans 
and military spouses who continue to struggle, even though the 
unemployment rate has been cut in half over the last 5 years 
for most segments of the military population. We can't just 
wipe our hands and say that we can declare victory. We have a 
lot more work that needs to be done.
    And I think this issue, the issue of finding and helping 
servicemembers and veterans find meaningful employment 
opportunities is really one of national security, because as we 
look and have to--at some point in the future have to have--
continue to have an all-volunteer force, we need young men and 
women who are willing to raise their right hand for the promise 
that it is going to somehow lead to better economic 
opportunities.
    And if we can't deliver that as a country, and that next 
time that we need to make that call, it may be more difficult 
for our services to find those young men and women who are 
willing to raise their right hand. So from a national security 
perspective, but it is also--from a business organization, it 
is absolutely critical that we take these talented young men 
and women and make sure that they have meaningful 
opportunities.
    It is absolutely critical for America's workforce that 
these highly motivated, highly skilled, highly trainable, young 
men and women are that next generation of leaders in those 
companies. And we have certainly seen from the business 
community that there is a groundswell of support and really of 
a fight to find those young men and women.
    But hearings like this and continuing to focus on these 
issues is absolutely critical in the near future.
    Mr. Howell. Thank you for the question.
    I think that, first of all, so much of what your Committees 
have done and are working towards have been effective, and so, 
I don't want to lose sight of the fact that the VOW Act, and 
some of these other things have had an impact. Recently, we 
spoke with--or I have been speaking with employers who, when we 
opened it up to, was it 20/20, the VOW Act or the coverage for 
the tax incentives, that created another round of excitement 
towards us.
    And that may be not the right word, but the idea is that so 
many companies had been kind of thinking, well, this is going 
to go away, so I am not going to invest because of that. But 
now that there is a longer road to this, it is starting to get 
a lot more interest with employers. So I want to encourage, you 
know, continuing those kind of programs and incentives, and 
looking for new ways to try to incentivize it. At the same 
time, I know that that can backfire and become, you know, 
another entitlement issue that we don't want to get into, but I 
think off the top, that is one of the things that I would 
continue to pursue.
    The other thing is, and I know we haven't talked much about 
it, but when a servicemember transitions out of the military, 
typically--let's pick an E-5--they are going to be stepping out 
from a situation where they have housing and everything 
covered, typically a single income at the E-5 level. When they 
step out, it is very difficult to step right back into that E-5 
pay level, plus they all of a sudden have the weight of the 
economy on them, the cost of housing and all these sort of 
things.
    We have to keep in mind that there is two people that 
transition, if not more, when it comes to military family, and 
it is the spouse employment issues that we should also be 
considering. I know that it is not necessarily a veterans' 
issue, but when it comes to impacting a veteran's quality of 
life and their opportunities, looking out for the spouse as 
they transition, I think, would be an important factor to 
consider moving forward.
    Otherwise, like I said, the biggest issues that we have 
seen veterans talk about are--and more so, we are trying to 
listen more to employers is a lack of understanding of what the 
military servicemember brings to their company, a lack of 
understanding of exactly the incentives for why they would want 
to hire them, and we are working very hard to create a 
curriculum to help bring employers up to speed on how to hire 
veterans, how to retain veterans, and by using the best 
practices that we have learned from organizations or companies, 
like Verizon, who are doing a fantastic job of hiring and 
retaining veterans, looking at what they are doing and then 
trying to teach that to other employers.
    I don't know how that impacts legislation, but I thought I 
should share that while I had the opportunity. Thank you.
    Mr. Wenstrup. Mr. Acosta.
    Mr. Acosta. Chairman Wenstrup, DAV members, at our last 
convention, affirm DAV resolution number 136, which calls on 
Congress to work with the Department of Labor, the Department 
of Defense and, track the results and status of people that go 
through the Transition Assistance Program, the transition GPS, 
and to make any changes based on what they may see on that 
data.
    Mr. Wenstrup. Thank you.
    Mr. Call.
    Mr. Call. You know, when I get the opportunity to mentor, 
you know, servicemembers that are thinking about transitioning 
out, I always use the analogy of, in the military, you don't 
learn how to fly an F-18 the day before you are stepping into 
that cockpit, in an F-18. And so don't learn how to develop a 
professional identity and develop a professional network that 
you are going to have to leverage when you are transitioning 
right when you are going to transition. Do it much earlier than 
that.
    So anything we can do to drive awareness and promote a lot 
of the programs you are hearing about today a lot earlier in 
the servicemember's life cycle, in their career, I think will 
be hugely beneficial to them as they transition out of the 
military.
    Mr. Wenstrup. Well, thank you, all.
    And I thank my colleagues for obliging me going over a 
little in time. I will be glad to extend the same to each one 
of you.
    Mr. Takano, you are now recognized.
    Mr. Takano. Thank you, Mr. Chairman.
    Welcome, Secretary Michaud, Assistant Secretary Michaud. 
You have certainly hit the ground running in your new role as 
head of DOL VETS, and we are always pleased to see you back 
before this Subcommittee or Committee. And congratulations on 
the team you have assembled in such a short time, and we truly 
appreciate your testimony today.
    Veteran employment rates are low overall, but one of our 
priorities today is to look a little closer at the higher 
unemployment rate for women veterans. And as you know, I am 
sponsoring a bill to study the Transition Assistance Program, 
which if passed, will take a look at whether TAP can be 
improved to meet the needs of women veterans, disabled 
veterans, and insular veterans.
    In your opinion, what are the main reasons for the lower 
employment rate for women veterans?
    Mr. Michaud. If you look at, I think, the lower 
unemployment rate for female veterans versus the non-veteran 
femaile population, it is a combination of all the efforts 
collaboratively done by, both public, and private sectors to 
bring that unemployment rate down.
    As far as the TAP, we are constantly reviewing the TAP 
curriculum. As far as how effective it is--I was actually asked 
before I came in here if the VOW Act has been effective. How 
can you quantify that? It is very hard to quantify because 
there is so much being done at the local, State, and Federal 
level, to say this is what really caused it to drop.
    All I can say, if you look at the charts that I have given 
you, those three charts, the VOW Act was passed in 2011. It was 
into the TAP curriculum in 2013, and then you can see how the 
numbers have been going. So whether it is all because of the 
VOW Act, it is pretty hard to say.
    You know, there have been several comments about trying to 
help servicemembers early in their transition. That is an 
issue, and we actually established and implemented a senior 
sergeant major professional military education initiative. We 
have a full-time sergeant major that works over at the 
Department of Labor VETS that actually helps us with the 
sergeant majors.
    My deputy assistant secretary, Terry Gerton, and Sergeant 
Major Coleman actually spoke at the Sergeant Major's Academy to 
really impress upon them the importance of trying to get those 
that are in the military, as soon as they are sworn in, into an 
American job center so they can start that process early on.
    The other issue that actually dealt with that same 
information, is the Veterans Data Exchange Initiative. This is 
the first of its kind, an MOU, that I signed earlier this year 
with the Department of Defense, to actually get the information 
from those members who are in the military. We were getting 10 
years' worth of information and on. So we can actually better 
analyze what is happening in the military as they go through, 
so we can actually establish policies that will help them as 
they get ready to transition out of the military.
    Mr. Takano. So you are looking at other ways to gather data 
and information. On a slightly different topic related to women 
veterans, and this is not so much the unemployment rate, it is 
interesting that they have a lower unemployment rate for women 
veterans. But we know that they don't--women veterans don't 
access their benefits as much as other veterans. Maybe they are 
going to work instead. Maybe they are taking up the Chairman's 
notion that you don't go to school, but you go into work. Maybe 
that is what is happening with our women veterans.
    But we have a suspicion that might also have to do with the 
fact that they don't identify, they are reluctant to identify 
themselves as veterans. Can you shed any light on whether it is 
a reluctance to identify, whether they are going into the 
workforce? Why is it that they are not accessing their benefits 
as much as the male veterans?
    Mr. Michaud. This is speculation. Actually, when Judge 
Russell came to speak before this Committee a number of years 
ago, when I was on the Committee, he asked the audience how 
many were veterans, and hands went up. When he rephrased the 
question, how many here served in the military? More hands went 
up. And the issue is some veterans, whether it is male or 
female, they don't self-identify themselves as veterans because 
of different reasons.
    And within our female veterans population, it is more 
problematic than in the male population as far as self-
identifying whether they are veterans. One of the things I 
stress as I go around the country and to the American job 
centers, rather than ask if you are a veteran, ask them whether 
or not they served in the military. That will actually, I 
believe, will help us identify those who served. It depends on 
how you phrase the question on what the response you are going 
to get.
    Mr. Takano. Well, along those lines, let's turn to the 
American job centers. Do you feel that the DVOPs and the LVRs 
at the American job centers are adequately trained to help 
employers understand the unique and positive aspects of 
recruiting and hiring women veterans?
    Mr. Michaud. Absolutely. Our focuses are on all veterans, 
women veterans of all different ages. The DVOPs and LVERs have 
done a tremendous job. I am very proud of them. And with 
VETERANS.GOV that we initiated, there is a site. If you click 
on the site, ``Hire a veteran,'' you go to the next page, there 
is a "get one-on-one assistance" button, and if the employer 
needs X amount of employees in a certain category, they get a 
response back within 1 day. One day they will get a response 
back from LVERs of what is out there. I am very proud of the 
customer service that we are able to provide for the employers 
that actually call Department of Labor VETS or go to our 
VETERANS.GOV Web site.
    Mr. Takano. Just one more question, Mr. Chairman. Mr. Call, 
I want to thank you for spending a little time with me 
yesterday afternoon. And I certainly want to thank you for your 
service as a Marine and thank all the gentlemen who have served 
our country, all of you.
    You know, the Chairman and I, you know, we did a lot of 
work on examining our TAP--the TAP process, and how effective 
the Transition Assistance Program is in helping our veterans 
transition. Veterans often say that a TAP refresher after 6 
months from separating from the military is beneficial to them. 
And one of the problems with this is that unless they have 
applied for benefits, the VA doesn't necessarily know where all 
the separated servicemembers are.
    Are there ways that LinkedIn might work with DOL and the VA 
to inform veterans on how to reconnect with TAP resources and/
or Soldier For Life personnel?
    Mr. Call. Thank you for that question, Congressman.
    Like many of the gentlemen have already said up here, you 
know, our program at LinkedIn, we don't look at it as the only 
solution. We look at it as part of the solution with a lot of 
the programs that have been mentioned today. So we are always 
looking for ways to collaborate and to partner with any 
organization that has the best interest in the veteran 
community at heart.
    We do have a very solid community, a very engaged veteran 
community on LinkedIn. And it would be, you know, a privilege 
of ours to be able to promote other programs that are highly 
beneficial to that community.
    Mr. Takano. Well, specifically, it seems to me that the VA 
Assistant Secretary Michaud could really use your help in 
identifying and making known things like the TAP refresher 
course. Because my experience is servicemembers are in such a 
hurry to get out, there is such a lot of information coming in, 
and then only after they have been out for a while do they 
realize, oh, you know, I don't really know all the services. I 
didn't even know that was available and, you know, this program 
or that program. But it seems to me that such you have such an 
extensive network through LinkedIn that this might be a way for 
us to reach those veterans and identify them.
    Mr. Call. Yes. And we have been in touch with the 
Secretary's team. They have been wonderful to work with, and we 
look forward to broadening that collaboration moving forward in 
the future for sure.
    Mr. Takano. Thank you, Mr. Chairman. That concludes my 
questions.
    Mr. Wenstrup. Ms. Rice, you are now recognized.
    Miss Rice. Thank you, Mr. Chairman.
    Secretary Michaud, is it Secretary? Assistant Secretary. I 
am trying to give you a promotion. Sorry about that.
    Mr. Michaud. If Secretary Perez is looking at it, he might 
be a little nervous.
    Miss Rice. Speaking of him, you know, we were talking about 
the rate of employment among women veterans versus the greater 
veteran population. I have had conversations with Secretary 
Perez in the past on the opportunities that apprenticeships 
offer for women and minorities. And I wonder how you think we 
can encourage more women veterans to seek out apprenticeships?
    Mr. Michaud. That is a very good question, Congresswoman. 
And that is one area that, as I go around talking with 
businesses or with the garrison commanders on the different 
bases I attend, apprenticeship is an important tool. It is a 
tool that, thanks to Congress, DOL has $90 million more for 
apprenticeships. We have been aggressively promoting 
apprenticeships among the business community, among the VSOs, 
and looking at the skill gaps that are currently out there, and 
how we can fill those particular skill gaps in establishing an 
apprenticeship program, if there is not one available, and look 
at--the women veterans populations, is to fill the skill needs. 
It is a very important tool.
    Miss Rice. Great. Well, I obviously couldn't agree more.
    Mr. Call, I want to thank you for coming and meeting with 
me this morning. You definitely did your homework by meeting 
with Members of the Committee. I think that is very helpful to 
us to get to know all of you and exactly what you are doing.
    So you had mentioned this morning, you discussed your 
meeting with the Department of Defense Secretary Ash Carter. 
And you said that during that meeting that he suggested that 
servicemembers should set up their LinkedIn profiles earlier on 
in their military careers when they are active so that they 
have fully developed online--they have a fully developed online 
presence and professional network, or at least time to build a 
professional network by the time they are transitioning.
    So can you just tell the Committee what your plans, what 
LinkedIn's plans are with DoD, the VA, DOL VETS to start 
encouraging servicemembers to do that?
    Mr. Call. Yeah, sure. And just a quick clarification on 
that meeting, we were very honored to have Secretary Carter 
come to LinkedIn. It was a great meeting with him and all of 
his team, and that was one of the topics that definitely was 
discussed during that meeting. I am not positive if Secretary 
Carter initiated that conversation, but it was something that 
was discussed for sure.
    Miss Rice. Well, then I will give credit to you since he is 
not here.
    Mr. Call. But yes, so we have actually created--I mentioned 
Lynda.Com, the online learning platform, that we now offer 1-
year free subscription to servicemembers and veterans that are 
members of LinkedIn.
    We actually created a course called LinkedIn for Veterans, 
and this was--the course was intended to remove the barrier to 
really trying to figure out a way to establish a professional 
identity and professional network so that you could connect to 
opportunity. So it takes you from A to Z and gives you 
excellent demonstrations and practical application that you can 
do on the platform in a real interactive way. So that--
integrating that course into a servicemember's training earlier 
on in their life cycle can be hugely beneficial for them to 
both understand why they should be on LinkedIn, but also how to 
utilize it.
    Miss Rice. Let me just say that I just want to acknowledge 
LinkedIn. I mean, there are a lot of--you know, we talk today 
about companies that talk about hiring or trying to convince 
the private sector about how important it is to hire. And you 
are a perfect example, Mr. Call, in my opinion, of the benefits 
that companies get by hiring someone like you who you don't 
forget the men and women that you served with. And you come 
back into the private sector and you are doing everything that 
you can to help them.
    So I want to thank LinkedIn for giving opportunities to, 
you know, great Americans like you who have served our country 
and deserve an opportunity to put all the wonderful skills that 
they have to use, not just for their own, you know, 
professional benefit, but for those of their fellow colleagues 
as well. So thank you.
    And just one more question, Mr. Chairman, if I may. You 
know, Long Island, where I am, Mr. Howell, has a large 
population of World War II, Korea, and Vietnam vets. Now, 
because I am curious, how do you attract older veterans who 
might be less comfortable using, you know, the new technology? 
I mean, when I try to explain to kids when I was a DA that when 
I was growing up there was one phone in the house and it was 
attached to a wall, they look at me like I am a Martian.
    So how do you do your best to bring that generation of 
veterans into this universe?
    Mr. Howell. It is a very good question, and I have got to 
tell you that, surprisingly, that is our most active group. 
Vietnam era and backwards are the most active group on 
Military.Com as far as commenting on articles, engaging with 
one another. They seem unstoppable at some point; it is 
impressive.
    I think that there are programs where--because obviously, 
we are finding just a snippet of those, the vet population, 
because there are quite a few who are technology, you know, 
phobic, so to speak. But I think that what we have done in our 
areas, and I think other opportunities for others to draw them 
in are through organizations like--there is an organization in 
Oregon right now who is actively going out and interviewing and 
filming World War II veterans and Korea War veterans, getting 
their stories before they pass.
    And I know that the Legion has a program like that, but I 
am working directly with the Foundation right now in Oregon 
where we are gathering these stories and trying to build an 
archive. They are actually building curriculum around those 
veteran stories so that their stories aren't forgotten.
    So as we do that, then, if we can't get them to come to the 
site, at least we can get them on the site as far as their 
presence and their experience, but like I said, as a whole, we 
don't suffer from having a lack of interaction with our older 
veterans.
    Miss Rice. Great. Thank you. And thank you, Mr. Chairman.
    Mr. Wenstrup. Mr. McNerney, you are now recognized.
    Mr. McNerney. I thank the Chairman for holding this 
hearing, and I just want to say how impressive the results have 
been. It wasn't that long ago that it looked like a veteran 
unemployment was going through the roof, and now it seems to be 
controlled, at least, and continuing to move in a good 
direction. So you all deserve a lot of credit for that and a 
lot of other people do, too.
    So Michaud, I have heard that some States are experiencing 
a problem with the timing on the money they received for the 
jobs for veteran State grants. The JVSG funding which pays for 
the DVOP and the LVERs. We serve veterans out of American job 
centers, we hear that many States are hiring fewer of these 
DVOPs and LVERs in anticipation of delayed funding.
    Have you heard about these concerns, and do you have any 
thoughts on how we can better ensure that this funding is 
provided so as not to cause disruption on the hiring?
    Mr. Michaud. Thank you very much, Congressman, for that 
question. As I go around the country, and meet with State 
agencies, with veterans service organizations, and others, the 
issue that comes up when we talk about Jobs for Veterans State 
grants actually is two issues. The first issue is that States 
want flexibility, particularly rural States, as it relates to 
LVERs and DVOPs. I was able to actually provide that 
flexibility about a month ago to allow them to better manage 
DVOPs and LVERs.
    The second issue is the one that you asked me about that 
constantly comes up in every State whether it is a large State 
like California, or Texas, or small State, like Maine or 
Massachusetts.
    The funding is an issue. It is a timing issue. JVSG is the 
biggest funding program, and money goes directly back to the 
States. And when Congress doesn't pass a budget on time, that 
causes concerns for the States. And some of the solutions that 
actually have come up when I talk to folks is, how can we close 
that gap, because what is happening with some States is they 
are not hiring DVOPs and LVERs, not knowing whether Congress 
will provide the funding, or when it provides it. And the 
solutions that some States have proposed is to either put the 
JVSG program, similar to other DOL programs, like the Wagner 
Piazza on a program year, that is one option.
    Another option that has come up is dealing with advanced 
appropriations. For a State like California, for instance, 
California receives $19 million for JVSG funding. And if they 
do not get the funding on time on a monthly basis, I believe it 
is probably a little over $1.5 million. So it is an issue.
    When I was in Colorado, I actually had a roundtable 
discussion with Congressman Lamborn. That issue came up in 
Colorado as well. I know Congressman Lamborn was going to look 
into it.
    Mr. McNerney. Thank you.
    Mr. Michaud. We look forward to working with the Committee 
to help.
    Mr. McNerney. Find solutions.
    Mr. Michaud. Find a solution.
    Mr. Wenstrup. Mr. Howell and Mr. Acosta, I few years ago, I 
think there was a feeling that some of the veterans were 
feeling discriminated against because of concerns about post-
traumatic stress and other sorts of stigmas. Is that a problem 
or has that more or less dissipated? And if not, what can we do 
about that together?
    Mr. Acosta. Thank you. That is a wonderful question. PTSD 
of course is a prevalent problem among--an issue among 
veterans, wounded and ill veterans, disabled veterans 
especially. Those veterans are focused on and looked at the VA 
health care system, and they are treated there.
    As far as their needs, we can assess their needs when they 
come in and talk to us and determine what is best going to be 
the outcome for them, and what kind of resources we can shed 
light on for them.
    Mr. McNerney. Are employers sort of stigmatizing, and maybe 
discriminating against veterans for that sort of fear--for fear 
of that sort of problem?
    Mr. Howell. That was a concern we had--pardon me for 
jumping in here. Thank you for the question--that was a concern 
that we had a number of years ago as--especially when we kind 
of peaked on the unemployment. We worked with DAV and other 
organizations to get a lot of content, a lot of information out 
there to try to destigmatize that to kind of put it in the real 
terms that it isn't a danger that an employer has to 
necessarily prepare for or plan for or be aware of. I think 
that over time, that we have seen that conversation wane with 
our discussions with employers. It didn't seem to be at the 
forefront of their concerns like it may have been a few years 
ago.
    So while I don't think there is an active thing we can do, 
it is just a matter of keeping it out on the open and talking 
about it, and kind of taking the stigma away from it in our 
conversations, both here and outside.
    Mr. McNerney. Thank you. Mr. Chairman, I yield back.
    Mr. Wenstrup. I thank you. I am curious as to maybe on that 
very topic that Mr. McNerney brought up, maybe employment and a 
sense of purpose reduces some of the symptoms of PTSD. We may 
find that it may change the dynamic and actually be helping 
rather than being a concern. Anecdotally at least, that may be 
the case. Hopefully that is the case, and we can continue that.
    Before we close, I ask unanimous consent that LinkedIn's 
annual veterans' inside report be included in today's hearing 
record. Hearing no objection, so ordered.
    Mr. Wenstrup. And I want to thank you all for your 
testimony today. I think this was an outstanding hearing. And I 
appreciate your thoughtful responses to our questions today. I 
appreciate everything that each of you is doing to connect 
veterans to meaningful jobs as they exit the military. All your 
hard work is paying off as the national unemployment rate 
amongst veterans continues to decrease. As was said earlier, 
and I think we would all agree, that we as a country still have 
more work to do to ensure that all the men and women who have 
served this Nation, and want a meaningful career after uniform 
are able to do so.
    I look forward to our continued partnership going forward, 
and I hope that all levels of government and the private sector 
continue to collaborate to help veteran job seekers across this 
country.
    Finally, I ask unanimous consent that all Members have 5 
legislative days in which to revise and extend their remarks, 
and include any extraneous material on today's hearing. Without 
objection so ordered. The hearing is now adjourned.

    [Whereupon, at 3:45 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

                Prepared Statement of Michael H. Michaud
                              Introduction
    Good afternoon Chairman Wenstrup, Ranking Member Takano, and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to participate in today's hearing. As Assistant Secretary 
of Labor for Veterans' Employment and Training, I am excited to report 
on Department of Labor (DOL or the Department) efforts to provide 
better services that lead to improved employment outcomes for our 
Nation's veterans.
    I want to take this moment to personally thank every member of this 
Subcommittee and the Committee for their strong support of our armed 
forces, our veterans, and their families. I have been in this job for 
six months, and I greatly appreciate that we are all partners in 
promoting opportunities for veterans and in protecting their rights. 
Thank you.
    I am especially excited to inform you about our new 24/7 online 
resource, VETERANS.GOV. VETERANS.GOV is a critical resource that will 
help connect veterans and their spouses to civilian employment as well 
as employers seeking to hire veterans and their spouses. I will discuss 
this in more detail later in my testimony.
    Through the collective and sustained efforts and partnerships of 
many public and private organizations, the employment situation for 
veterans continues to improve and veterans' unemployment rates are 
trending down.
    The unemployment rate for veterans has fallen from a high of 9.9% 
in January 2011 to 3.4% in May 2016; lower than the nonveteran 
unemployment rate of 4.4% in May 2016. The chart on the next page shows 
that this is considerable improvement from this time in previous years.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    While the overall veteran unemployment rate continues to trend 
lower, we at DOL will not rest until all veterans have access to 
meaningful civilian employment. DOL is fully committed to supporting 
veterans of all ages. In addition to supporting veterans under 25 and 
those approximately 200,000 Service members who transition to veteran 
status every year, we also make sure that veterans over 45 have the 
support they need for employment success. Among the 495,000 unemployed 
veterans in 2015, 57% of them were age 45 and over.
    As I mentioned, the overall declining rates are the result of the 
integrated efforts of many public, private, and nonprofit organizations 
to connect veterans with employers and, perhaps most importantly, the 
result of our veterans once in a workplace, proving to be valuable 
employees.
    The mission of the Veterans' Employment and Training Service (VETS) 
is to prepare America's veterans, Service members, and their spouses 
for rewarding careers, provide them with employment resources and 
expertise, protect their employment rights, and promote their 
employment opportunities. Before I go further, I would like to take 
this opportunity to mention that other agencies share DOL's commitment 
to improve employment opportunities for our veterans. One example is 
the Department of Agriculture, whose Fiscal Year (FY) 2017 Budget 
includes several programs to assist veterans.
    We are working hard to improve our performance in support of our 
veterans, customers, stakeholders, and partners alike. Our efforts have 
contributed to improved employment outcomes for veterans and strong 
interagency collaborations. While we recognize there are challenges and 
much work ahead of us, we seek continued improvement with an approach 
to build and sustain partnerships and programs that focus on the 
following key areas:

    <bullet>  Engaging our Service members before they transition into 
civilian life;
    <bullet>  Providing a lifetime of employment support to our 
veterans, from the Gulf War II era veterans who have recently 
transitioned to previous-era veterans who have been out of uniform for 
many years;
    <bullet>  Engaging and mobilizing communities to establish 
collaborative partnerships to better support veterans nationwide;
    <bullet>  Ending homelessness for veterans;
    <bullet>  Addressing the skill gap between veterans and employers 
who are seeking employees with industry recognized credentials and 
helping veterans receive occupational, classroom and on-the-job 
training; and
    <bullet>  Conducting employer outreach to make it easier for 
companies to find and hire veterans by leveraging federal, state, and 
local resources.
Pre-Transition: Proactive Engagement with Transitioning Service Members
    Erik, a United States Marine (Active Reservist), used tips and 
skill builders from the DOL Employment Workshop Participant Guide and 
contacted Disabled Veterans' Outreach Program (DVOP) specialist Earl 
Thompson at an American Job Center (AJC) in Utah. Earl provided one-on-
one coaching and helped Erik translate his military skills, develop a 
resume, and prepare for an interview. Erik quickly landed a job as a 
Security Monitor at Vivint, a military-friendly smart home technology 
provider, and his military experience helped him secure a wage that 
increases upon completion of his initial work period.

    During the peak of the veteran unemployment crisis in 2011, the 
President established the Veterans' Employment Initiative (VEI) Task 
Force to ensure the career readiness of transitioning Service members. 
The Task Force consists of joint representation from DOL, Department of 
Veterans Affairs (VA), Department of Defense (DoD), Department of 
Homeland Security (DHS), the Department of Education (ED), the Small 
Business Administration (SBA), and the Office of Personnel Management 
(OPM). The President approved the Task Force's plan to strengthen and 
build upon the existing Transition Assistance Program (TAP) aimed at 
providing separating Service members and their spouses with the 
training and support they need to transition successfully to the 
civilian workforce.
    We have provided previous testimony on the evolution of TAP, 
particularly on the improvements to the DOL Employment Workshop. In 
conjunction with the TAP Senior Steering Group Curriculum Working 
Group, VETS completed a full review of the DOL Employment Workshop 
curriculum in FY 2016. The new curriculum was implemented on April 1, 
2016. DOL engaged industry representatives and veteran services 
organizations to participate in the curriculum review to ensure we 
leveraged expertise external to the Agency. Additionally, Service 
members from six military installations who were participating in the 
DOL Employment Workshop were interviewed and all Service member 
participant survey data was reviewed. In FY 2017, a new biennial review 
cycle will begin. Year one of the cycle calls for a technical review, 
in which the Agency ensures all names and sources of references 
(websites, resources, etc.) remain up-to-date. As FY 2017 closes, VETS 
will prepare for year two, which is a full-scale curriculum review and 
update.
    Another important component of the revised TAP is the 
implementation of the Military Life Cycle (MLC) model. MLC will 
initiate a Service member's transition preparation at the onset of 
their military career (both Active Duty and Guard/Reserve). The model 
outlines key points in time, or ``touch points,'' throughout a Service 
member's career to align their military career with their civilian 
career goals. It promotes awareness of the Career Readiness Standards 
Service members must meet long before separating from Active Duty and 
enables transition to become a well-planned, organized progression of 
skill building and career readiness preparation.
    In order to better support the MLC and ensure that the first time 
military leaders learn about transition resources is not when they 
themselves are separating from active duty, VETS implemented the Senior 
Sergeant Major Fellow Professional Military Education (PME) Initiative. 
This Initiative involves a U.S. Army Sergeant Major acting at VETS as a 
Senior Military Fellow on a full-time, one-year rotational basis.
    Additionally, VETS established a formal relationship and routine 
presence at the U.S. Army Sergeants Major Academy. This effort includes 
a mutual academic relationship, in which students of the academy's 
Sergeants Major Course conduct staff studies on the MLC and 
transitioning Service member programs, presenting their results in a 
formal briefing to DOL VETS leadership each semester. This is a great 
opportunity for both organizations as it enables future senior enlisted 
leaders to interact with another federal agency and provides DOL 
insight and best practices from senior leaders in the Army. VETS is 
seeking to extend this collaboration to the other military services.
    VETS' engagement in support of transitioning Service members and 
their families is not limited to the Employment Workshop. The following 
Service members are some of the populations eligible to receive 
intensive services from DVOP specialists: Service members who are 
referred via a Capstone ``warm handover'' or those who have not met 
Career Readiness Standards (CRS); all transitioning Service members 18-
24 years old, regardless of whether they meet CRS; and active duty 
Service members being involuntary separated through a service 
reduction-in-force. Additionally, those Service members who are wounded 
ill, or injured and receiving treatment in military treatment 
facilities or warrior transition units as well as their spouses or 
other family caregivers may also receive intensive services from a DVOP 
specialist.
    Additionally, military spouses who are unable to continue 
employment due to permanent change of station orders or as the result 
of military deployment, and certain transitioning Service members 
within six months of separation are eligible to receive employment and 
training assistance under the Department's National Dislocated Worker 
Program.
    DOL supports the opportunities under the DoD SkillBridge initiative 
that promotes DoD's authority to offer civilian job training to 
transitioning Service members. Service members meeting certain 
qualifications can participate in civilian job and employment training, 
including Registered Apprenticeships, on-the-job training, and 
internships in their last 180 days of active duty. Tremendous potential 
exists for Service members, companies, trade unions, and others to 
leverage this new DoD authority and smooth the path from active duty to 
civilian employment.
    In addition to the above outreach efforts, DOL is working with the 
Employer Support of the Guard and Reserve (ESGR) program to assist 
reserve Service members with identifying and connecting with AJCs while 
providing local staff the opportunity to benefit from relationships 
with military-friendly employers that ESGR has cultivated over the 
years. ESGR will continue to grow its partnerships with the DOL's AJCs, 
Service-based hiring programs, and state-based hiring initiatives to 
fulfill the employment information and referral mission. To date, five 
states (Alabama, Georgia, Illinois, Indiana, and Iowa) have moved 
forward with the project, while all states have assessed their existing 
partnerships to serve our valued reserve component Service members and 
families.
    DOD's Office of Warrior Care Policy (OWCP) ensures recovering 
wounded, ill, injured, and transitioning members of the Armed Forces 
receive equitable, consistent, and high-quality support and services. 
OWCP helps our wounded warriors and their families through effective 
collaboration efforts, pro-active communication, responsive policy, and 
program oversight. VETS is honored to support this organization and 
those they serve. We provide information briefings to their Regional 
Care Coordinators to ensure that the wounded warriors and their 
families are aware of the personalized employment services provided at 
AJCs nationwide.
    In 2013, DOL signed a Memorandum of Agreement with the Consumer 
Financial Protection Bureau (CFPB) to launch a nation-wide Financial 
Literacy Coaching Program for transitioning Service members and 
spouses. The program is a joint effort between DOL and the CFPB to 
place specially trained coaches in select AJCs to provide financial 
advice to recently separated veterans. Under the Program, CFPB has 
placed financial coaches at a total of 60 AJCs.
    As part of the agency's Veterans Data Exchange Initiative (VDEI), 
VETS has worked with DoD's Defense Manpower Data Center (DMDC) to 
develop a ``first-of-its-kind'' Memorandum of Understanding (MOU) 
agreement to transfer several years of exiting military Service member 
data to DOL for analysis. VETS has engaged the DOL's Office of the 
Chief Information Officer (OCIO) in the development of a system to 
securely store and analyze the Service member data which includes 
demographic and service-related characteristics of separated Service 
members. With the MOU completed, VETS is working with DMDC to transfer 
the first data and begin initial analysis in the coming months. This 
aggregated data and analysis will assist VETS in our policy development 
to better support veterans' employment and training needs and improve 
outcomes.
    Outside the Federal government, VETS' staff participate at hiring 
events nationwide including sitting on panels and conducting ``American 
Job Center: Path to Veteran Employment'' workshops at the transition 
summits cohosted by DoD and the U.S. Chamber of Commerce Foundation 
Hiring Our Heroes program. DOL works closely with Hiring Our Heroes 
staff, Service representatives and Service organizations such as 
Soldier For Life (SFL) and Marine For Life (M4L) to communicate with 
Service members and connect them to DOL resources before they separate 
from active duty.
    VETS will continue to focus on our proactive engagement of our 
Service members before they transition into civilian life with 
effective engagement and services that lead to meaningful employment.
          Post Transition and the American Job Center Network
    Bradley, after serving ten years in the United States Army as a 
Military Police Officer, found the civilian job market to be much 
different from when he first enlisted. After an initial visit to an AJC 
in Las Vegas, NV, he received help updating his resume and translating 
his military skills into a format that would be attractive to 
employers. Bradley is now a Regional Representative in the Las Vegas 
office of U.S. Senator Dean Heller.

    The public workforce system includes a nationwide network of nearly 
2,500 AJCs, a network operated in partnership by Local Workforce 
Development Boards (WDBs), State Workforce Agencies (SWAs), and DOL 
(primarily the Employment and Training Administration - ETA) and is the 
next natural step for our transitioning Service members when they 
complete the DOL Employment Workshop component of TAP. Veterans receive 
priority of service at AJCs.
    VETS' Jobs for Veterans State Grant (JVSG) Program provides funding 
to 54 states and territories for DVOP specialists and Local Veterans' 
Employment Representative (LVER) staff, located in AJCs. DVOP 
specialists provide intensive services to veterans and eligible 
populations, including homeless and formerly incarcerated veterans, 
through individualized case management. This includes comprehensive and 
specialized assessments of skill levels and needs, development of 
individual employment plans, group and individual career counseling and 
planning, and short-term skills development (such as interview and 
communication skills). LVER staff promotes the hiring of veterans in 
communities through outreach activities that build relationships with 
local employers, and provide training to workforce center staff to 
facilitate the provision of services to veterans.
    We have improved the Intensive Service rate as well as employment 
placement rate for all veterans served by JVSG. The percent of JVSG 
participants receiving intensive services has increased from 22 percent 
in FY 2010 to 85.7 percent in FY 2016 as of March 31, 2016 - half-way 
through the fiscal year. For the same time period, the entered 
employment rate for JVSG participants increased from 48 percent to 59.5 
percent. Further, the employment retention rate of JVSG participants, 
or those who retained employment six months after program exit, has 
increased from 74 percent in FY 2010 to 82.3 percent, and the average 
six-month earnings of these participants rose from $14,751 to $16,697.
    I have made it a point in my first six months in office to visit 
JVSG programs in over a dozen states and in all of DOL's regions around 
the country. Last month, I also had the opportunity to visit the 
National Veterans' Training Institute in Denver, CO to observe the 
training program for JVSG-funded staff (including DVOP specialists and 
LVERs).
                           State Partnerships
    VETS has continual interaction with the National Association of 
State Workforce Agencies (NASWA). They provided state information for 
our VETERANS.GOV website and have assisted in evaluating our training 
programs for LVERs and DVOP specialists. DOL also sponsored a recently 
published study conducted by the National Governors Association (NGA), 
entitled ``Veterans' Licensing and Certification Demonstration and Cost 
Study: A Summary of State Experiences, Preliminary Findings, and Cost 
Estimates,'' (hereinafter referred to as the DOL L&C Demonstration and 
Cost Study) on which we testified before this Subcommittee in September 
2015. I will provide additional information about the report later in 
this testimony. We are also engaged with the National Conference of 
State Legislatures (NCSL) which will be engaging state legislatures to 
consider the recommendations of the DOL L&C Demonstration and Cost 
Study.
    Representatives from the NASWA, NGA, and NCSL are all members of 
VETS' Advisory Committee on Veterans' Employment, Training and Employer 
Outreach (ACVETEO). ACVETEO is a Congressionally-mandated advisory 
committee authorized under Section 4110 of Title 38, U.S. Code, and is 
subject to the Federal Advisory Committee Act (FACA). The ACVETEO: 
Assesses the employment and training needs of veterans and their 
integration into the workforce; determines the extent to which the 
programs and activities of DOL are meeting such needs; assists me in 
carrying out outreach activities to employers with respect to the 
training and skills of veterans and the advantages afforded employers 
by hiring veterans; and makes recommendations to the Secretary, through 
me, with respect to outreach activities and employment and training 
needs of veterans. The recommendations of ACVETEO will help DOL promote 
opportunities for veterans and their spouses, and VETS continues to 
track progress on the recommendations submitted in the FY 2015 ACVETEO 
Annual Report to Congress.
               Outreach Through the Web and Digital Media
    Because our veteran clients and stakeholders requested it, VETS now 
provides a 24/7 online resource easily accessible to all veterans as 
well as to employers who want to hire veterans. On May 1, 2016, VETS 
officially launched VETERANS.GOV. The site is designed to be the 
virtual ``first stop'' for veterans, transitioning Service members, and 
their spouses in the employment search process - and for employers in 
the hiring process. The site brings together job banks, state 
employment offices, AJCs, opportunities in top trending industry 
sectors, and employer assistance all in one online spot. There also are 
links to several platforms that veterans can use to help translate 
their military skills into skills for the civilian workforce. We are 
leveraging the Department's Facebook and Twitter accounts as part of 
our efforts to reach veterans and their families. For veterans, Service 
members and their spouses looking for their first civilian job after 
the military, wanting a career change, or hoping to start their own 
business, VETERANS.GOV is a critical resource that will help connect 
veterans and their spouses to civilian employment. We believe this new 
website will be very useful to veterans and their families, and it is 
another sign of the Department of Labor's commitment to assist veterans 
and transitioning Service members in every way possible with training 
and other opportunities to find meaningful employment and build bright 
futures for their families.
    Our federal partners also are represented on VETERANS.GOV to assist 
the respective agencies veteran employment efforts and to advocate 
careers in their respective employment sector. On the VETERANS.GOV 
landing page, there are links to the SBA, and Departments of 
Agriculture, Transportation, Homeland Security, and Energy's veteran 
pages as well as a link to OPM's Feds for Vets page that provides 
information on how to apply for a federal job. As an example of federal 
and state coordination, users can click on a map of the United States 
on VETERANS.GOV to quickly receive state-specific veteran employment 
information. In addition to VETERANS.GOV, the Department also maintains 
a mobile app, CareerOneStop Mobile, available on both Apple and Android 
devices. CareerOneStop Mobile provides veterans and non-veterans alike 
on-the-go access to many of the tools found on VETERANS.GOV such as job 
banks, military-to-civilian skills translation, local training 
opportunities, salary data, and an AJC finder.
                          VA & DOL Partnership
    DOL and VA are working closely to ensure our respective services 
complement each other so that veterans are better served. Our agencies 
agree that the successful readjustment of veterans with disabilities 
into the civilian workforce is a mutual responsibility and concern. 
VA's Vocational Rehabilitation and Employment (VR&E) Service and VETS 
have focused since 1995 on improving services for our shared veteran 
clients. A unified team approach between VA VR&E, VETS, and State 
Workforce Agency (SWA) staff, documented through Memoranda of 
Understanding, is fundamental to a seamless, positive experience for 
Chapter 31 veterans as they move through evaluation, training, job 
search, and employment. A true partnership capitalizes on the strengths 
of the involved agencies and fosters the ideals of exemplary customer 
service.
    VETS and VA routinely update their MOU regarding service protocols 
for veterans served under the VR&E program. The most recent MOU and 
Technical Assistance Guide (TAG) were published in February and April 
of 2015. The DOL VETS and VA VR&E Joint Working Group (JWG) recently 
mandated that VETS, VA VR&E, and SWA staffs develop local MOUs to 
facilitate communication and share information between agencies. A key 
component of this project is VA's referral of veterans found to be 
entitled to Chapter 31 benefits to their SWA and AJCs for Labor Market 
Information. This information is essential in tailoring their 
individual rehabilitation plans prior to entering training. A second 
referral to AJCs occurs near the end of the veteran's training program 
when the AJC provides employment services to achieve better employment 
post-training outcomes. The JWG is updating earlier guidance to now 
direct the majority of referrals, with some exceptions, of Chapter 31 
veterans to AJCs.
    The AJCs also assist in providing Reemployment Services and 
Eligibility Assessments (RESEAs) to transitioning veterans who receive 
Unemployment Compensation for Ex-Servicemembers (UCX), as well as 
claimants who have been identified as most likely to exhaust their 
unemployment insurance benefits and are in need of reemployment 
services. The Budget also includes almost $190 million to provide in-
person reemployment services to Unemployment Insurance (UI) 
beneficiaries most at risk of exhausting their benefits, as well as all 
returning veterans who are receiving UI. Evidence suggests these 
services are a cost-effective strategy that gets workers back into jobs 
faster with higher wages.
                             Women Veterans
    Our VETS Women Veteran Program (WVP) monitors the overlapping 
considerations of working women and working veterans, makes policy 
recommendations as appropriate, and conducts public engagement to 
ensure DOL's employment services are meeting the needs of women 
veterans. Based on WVP analysis and recommendations, the definition of 
homeless as a Significant Barrier to Employment for JVSG services was 
expanded, in 2015, to include persons fleeing domestic violence. To 
address the lack of awareness of VETS free employment services among 
women veterans and confusion related to eligibility for services, the 
WVP continues to promote the Free Employment Assistance for Women 
Veterans Webinar, available at http://www.dol.gov/vets/womenveterans.
    WVP also serves in an advisory role on the status of women veterans 
and employment for VA's Advisory Committee on Women Veterans and 
interagency workgroups including the White House Council on Women and 
Girls - Women Veteran Working Group. The WVP also maintains 
collaborative relationships with VA's Center for Women Veterans, Center 
for Minority Veterans, Office of Rural Health, and non-profit 
organizations that also provide services to women veterans and others 
to ensure that service providers and other influencers of women 
veterans are educated on the full suite of employment services that 
their women veteran clientele may need.
       Uniformed Services Employment and Reemployment Rights Act
    In addition to these extensive and personalized employment 
resources available to veterans through the AJCs, the Department 
protects veterans' employment and reemployment rights by administering 
and helping enforce the Uniformed Services Employment and Reemployment 
Rights Act of 1994 (USERRA), 38 U.S.C. 4301-4335. We have testified 
many times before this sub-committee on the USERRA program and provide 
a report annually to Congress enumerating our cases and outcomes. VETS 
is particularly proud of the strong customer service it provides to its 
stakeholders through these investigations-which was supported by the 
GAO's findings in its November 2014 report. VETS seeks to continually 
improve the services it provides to Service members, veterans, and 
employers. To that end, VETS implemented this year a customer 
satisfaction survey similar to that used in the U.S. Office of Special 
Counsel-VETS demonstration project in order to better identify best 
practices and areas for improvement.
                  Unemployment Among Homeless Veterans
    Doug is a 53 year old male who served on Active Duty as a rifleman 
in the U.S. Marine Corps from 1981 to 1984. After discharge, Doug found 
himself homeless and unemployed after years of substance abuse. An HVRP 
Jobs Coordinator first met him when he was living in an emergency 
shelter for homeless veterans in Hempstead, NY. Doug was referred to 
HVRP grantee Beacon House for employment training. During this time he 
completed his outpatient treatment and a 6-week course given by VA for 
training to become a house manager for group homes. Doug was offered 
and accepted a position as a house manager in the Grant and Per Diem 
Program at Beacon House. He more recently was promoted to the position 
as Director of Housing for Beacon House. During his employment with 
Beacon House, Doug received his Associates Degree in Science, got 
married and now lives in his own home in New York.
    The Department is committed to the Administration's goal of ending 
homelessness among veterans. Our Homeless Veterans' Reintegration 
Program (HVRP) addresses unemployment among one of the most vulnerable 
veteran populations, those who are homeless. VETS administers the HVRP 
to provide employment and training services to homeless veterans so 
that they can be reintegrated into the labor force, and to stimulate 
the development of effective service delivery systems which address the 
complex problems homeless veterans face. The HVRP is the only 
nationwide federal program focusing exclusively on helping homeless 
veterans to reintegrate into the workforce.
    In the last full program year, VETS' HVRP grantees placed 69% of 
the veterans they served into employment. The FY 2017 President's 
Budget includes a nearly $12 million increase for HVRP and related 
programs from $38.1M to $50M. If Congress increases the HVRP 
appropriation to $50 million, VETS estimates the number of veterans 
served could increase from approximately 17,000 homeless veterans to 
approximately 22,000 homeless veterans.
    Beginning in Program Year 2016 (July 1, 2016), VETS is requiring 
all grantees serving homeless veterans to co-enroll participants in the 
public workforce system through the local AJC while they are receiving 
services through VETS' homeless veterans program grantees. The 
expectation is to create a sustainable partnership in which 
participants' employment needs are met. The heart of the public 
workforce system is the AJC, the access point for employers to 
qualified workers and the access point for veterans to the employment 
and related services they need to find meaningful employment.
                          Community Engagement
    After Service members transition from military service, they 
relocate to communities across the nation. I believe the long term key 
to veteran employment support is to engage and mobilize communities to 
establish collaborative partnerships with coordinated, community-based 
support to veterans, Service members and their families. VETS supports 
the MyVA Community Model that includes Community Veterans Engagement 
Boards (CVEBs) that bring together local resources and capabilities to 
improve outcomes for veterans, transitioning Service members, and those 
who support them. As we continue to enhance our national workforce 
system engagement and veteran employment efforts across the nation, we 
acknowledge the importance of VA's existing national and local 
partnerships. VA expects to see 100 MyVA Communities throughout the 
country by the end of this year as a result of ongoing engagements with 
community leaders and existing groups with similar missions. The goal 
is to seek integration with existing community collaborative groups, 
and encourage local community leaders to adopt the MyVA Communities 
model where gaps may exist.
    Because Local Workforce Development Boards (LWBDs) oversee their 
local AJCs, we believe it is imperative that LWBD representatives are 
members of the CVEBs. This relationship ensures that the workforce 
development system is integrated into the community model. Our VETS 
State Directors (DVETS) are connecting with the local VA Regional 
Office Director or local VA representatives to be part of the MyVA 
Community movement and are working to connect our state workforce 
system partners and local WDBs with the existing local CVEBs.
    DOL and VA share a common mission to improve economic outcomes and 
opportunities for our nation's veterans. Leveraging our existing state 
workforce system and the nearly 2,500 AJCs in communities across the 
Nation will strengthen the community-based support to our veterans and 
their families.
    DOL's Center for Faith-Based & Neighborhood Partnerships (CFBNP), 
another community engagement program, reaches out to faith-based 
groups, community organizations, and neighborhood leaders to provide 
information and seek input on the important work that DOL performs on 
behalf of workers and job seekers. CFBNP seeks to build lasting 
community partnerships between these groups and DOL's workforce 
development and worker protection agencies. The CFBNP focuses its 
efforts on worker protection, job club initiatives, and grant 
partnerships, many of which focus on meeting the needs of veterans. 
These initiatives allow this community of practice to better serve 
disadvantaged and underserved workers and job seekers.
                        Addressing the Skill Gap
    I had the honor of meeting a class of Marines at Marine Corps Base 
Camp Pendleton, CA that were taking part in the Veterans in Piping 
program. This class was made up of a few Marines that had a military 
specialty related to welding, but many of them also had Military 
Occupational Specialty backgrounds in logistics, infantry and motor 
transport. This nationwide initiative graduates students into a solid 
private-sector job with good pay and benefits, and continuing education 
through world-class apprenticeship training programs.
    I have spoken to many employers and industry associations who want 
to hire transitioning Service members and veterans, but often the job 
seeker does not have an industry recognized credential required by the 
employer. Leveraging DOL's federal and state resources to effectively 
address this ``skill gap'' through training and education will lead to 
better employment outcomes for transitioning Service members, veterans 
and their spouses. VETS' focus is to leverage Registered Apprenticeship 
and On-the-Job Training (OJT) Programs, and to accelerate the 
attainment of licenses or certification requirements for veterans with 
appropriate skills and experience attained during military training and 
service.
    VETS works very closely with ETA to engage businesses and 
stakeholders on advancing apprenticeships and OJT opportunities for 
veterans. Work-based training, including Registered Apprenticeship and 
OJT, is a critical component of the Administration's job-driven 
training strategy - a strategy to ensure workforce training programs 
combine strong employer engagement with high quality training to create 
pathways for workers into high-growth occupations. The goal is to 
provide millions of Americans with secure jobs that lead to long-term 
employment with good wages and that meet employers' needs for skilled 
workers.
    Registered apprenticeships are among the surest pathways to provide 
American workers from all backgrounds with the skills and knowledge 
they need to acquire good-paying jobs and grow the economy. The ``earn 
and learn'' Registered Apprenticeship training model provides the 
opportunity for workers seeking high-skilled, high- paying jobs to be 
placed with employers seeking to build a qualified workforce.
    We believe Registered Apprenticeships are a proven strategy for 
veterans to advance into productive careers. Approximately 37,000 
veterans are actively participating in Registered Apprenticeships, in 
2014, and 2,200 veteran apprentices completed their apprenticeship in 
the 25 states managed by DOL. The employment outcomes for Registered 
Apprenticeship programs are impressive. In fact, according to DOL data, 
91 percent of apprentices are employed after completing their programs, 
with an average starting wage above $50,000. Apprenticeships have also 
been shown to increase a worker's lifetime compensation by over 
$300,000 compared to their peers. Apprenticeships are good for 
employers as well. The return on investment (ROI) for employers is also 
impressive - international studies suggest that for every dollar spent 
on apprenticeship, employers may get an average of $1.47 back in 
increased productivity, reduced waste and greater front-line 
innovation. And, for the United States, the ROI on apprenticeships is 
even better--for every public dollar spent on apprenticeship, we see 
$27 in benefits. \1\
---------------------------------------------------------------------------
    \1\ Source: Reed, D. et. al. (July 25, 2012). An effectiveness 
assessment and cost-benefit analysis of Registered Apprenticeship in 10 
States. Retrieved from http://wdr.doleta.gov/research/FullText--
Documents/ETAOP--2012--10.pdf
---------------------------------------------------------------------------
    Expanding apprenticeship programs expands opportunities for our 
veterans. President Obama has set a goal of doubling the number of 
Registered Apprenticeships in the coming years. And we're already 
making substantial progress toward that goal - adding more than 80,000 
apprenticeships in a little over two years, the largest increase in a 
decade. The Administration also made a historic investment of $175 
Million to 46 public-private partnerships to build on the solid 
foundation of apprenticeship in America, and expand the model into new 
industries -like health care, IT and advanced manufacturing. We 
anticipate this investment will create approximately 34,000 new 
apprenticeships - creating additional opportunities for our 
transitioning Service members, veterans, and spouses.
    I was very pleased that Congress appropriated $90 million to expand 
apprenticeship opportunities in FY2016. This infusion of resources will 
be the catalyst for building opportunities for employers to start to 
expand registered apprenticeship programs and for workers to gain the 
skills they need to succeed.
    VETS has focused on greater outreach to companies that wish to hire 
veterans in apprenticeships, and collaborated across the government - 
including with VA and ETA - to ensure that veterans can succeed in 
apprenticeship opportunities and receive the benefits they've earned 
under the GI Bill.
    Eligible Post 9-11 veterans can learn a trade through 
apprenticeships and use their GI Bill benefits to receive a tax-free 
monthly stipend paid by VA. This stipend gradually decreases as 
veterans' wages regularly increase throughout the Registered 
Apprenticeship period and ends once the veteran attains journeyman 
status and pay. Post-9/11 GI Bill recipients can also receive a books 
and supplies stipend during their Registered Apprenticeship. This is a 
vital way to help veterans meet their expenses while in a training 
program.
    The Department thought that we could do better to help both 
companies and veterans learn about the benefits that the GI Bill can 
provide in a Registered Apprenticeship and two years ago began a joint 
campaign with VA to encourage Registered Apprenticeships to be 
``Approved for the GI Bill.'' We continue this close collaboration with 
VA and its State Approving Agencies - to ensure that newly- Registered 
Apprenticeship programs can receive the VA certification for GI Bill 
benefits at the same time of registration.
    The Department's expanded outreach to employers has motivated 
companies from several industry sectors to have their apprenticeship 
programs approved and registered with DOL. They join the family of 
approximately 20,000 apprenticeship programs across the country that 
are training over 450,000 apprentices nationwide for jobs in demand - 
while securing a thriving and skilled workforce for the future.
    Licensing and credentialing also are a key part of the 
Administration's overall job training agenda. This month, the 
Department released its ``Veterans' Licensing and Certification 
Demonstration: A Summary of State Experiences, Preliminary Findings, 
and Cost Estimates,'' (hereinafter referred to as the DOL L&C 
Demonstration and Cost Study). The purpose of the DOL-sponsored 18-
month demonstration project conducted by the National Governor's 
Association (NGA) was to identify civilian occupational skills for 
licenses or certification requirements that could be satisfied (in 
whole, or in part) by military training and experience; and accelerate 
the attainment of civilian credentials by veterans with appropriate 
skills and experience. Section 237 of the VOW to Hire Heroes Act of 
2011, which amended 38 USC 4114, required VETS to conduct a cost study 
on occupational credentialing and licensing. The study required VETS to 
examine the costs incurred by DoD for military occupational skills 
training and compare them with the costs expended by DOL and VA for the 
job training and educational assistance provided to Service members.
    The NGA engaged six states (Illinois, Iowa, Minnesota, Nevada, 
Virginia, and Wisconsin) to participate in the 18-month study. The NGA 
worked with the six demonstration states to: 1) design and implement a 
model or framework for matching state-specific license and 
credentialing requirements with some or all of the military training to 
satisfy state requirements; 2) address gaps for subsequent civilian 
training through state strategies; and 3) identify and compare the 
training and employment-related costs after military service.
    The DOL L&C Demonstration and Cost Study identifies a number of 
barriers that affect the ability of Service members and veterans to 
attain civilian credentials on a timely basis. Key state demonstration 
findings on challenges and strategies for licensing and credentialing 
address:

    <bullet>  Equivalency challenges - states can assess the 
equivalency of military training courses and use official documentation 
to permit veterans with fully or partially equivalent training and 
experience to sit for civilian licensure examinations or license 
veterans by endorsement (officially recognize military training and 
experience to meet civilian requirements).
    <bullet>  Training gaps - states can work with education 
institutions to set up accelerated programs for veterans that bridge 
gaps, provide veterans advanced standing in existing programs, or offer 
bridge courses that prepare veterans to enter existing programs.
    <bullet>  Administrative or process challenges - states can assess 
any non-skill related requirements that might disadvantage veterans, 
such as fees or length of experience, or take steps to make civilian 
employment pathways friendlier to veterans through concerted outreach 
to both

    Given the vast array of possible occupational skills sets to study, 
and multitude of state licensing boards and higher education programs, 
VETS and ETA in consultation with demonstration states and the DOD and 
VA determined that the estimation of costs to transitioning Service 
members and veterans for attainment of civilian licenses and 
credentials could be examined at the benefits level for veterans. The 
NGA consulted with the demonstration states to conduct an analysis of 
federal costs associated with the demonstration states efforts. These 
potential cost savings include:

    <bullet>  Less time spent in training can lead to potential 
deferred federal government costs in the form of fewer dollars expended 
by VA under the Post-9/11 GI Bill for tuition and monthly housing 
allowance benefits;
    <bullet>  Less time spent securing employment can lead to potential 
cost savings for the federal government in the form of fewer dollars 
expended by the DOD for Unemployment Compensation for Ex-Service 
members (UCX) benefits and by the DOL for the delivery of employment 
services.

    Moving forward, the Department plans to continue working with its 
federal/state partners and stakeholders to continue to improve the 
challenges veterans face with licensing and certification. The 
Department thanks the six states in the report for their work and will 
reach out to the remaining states to encourage them to incorporate the 
best practices to help veterans bridge the gap between skills they have 
learned in the military and those needed for state certifications.
    In addition, this year the Department plans to award $7.5 million 
to support one or a few national or regional organizations to form and 
work with consortia of states to examine licensing portability across 
state lines. States in the consortia will objectively analyze the 
relevant licensing criteria, potential portability issues, whether 
licensing requirements are overly broad or burdensome, and the impact 
occupational licensing requirements may have on Service members, 
veterans, and their families.
                           Employer Outreach
    VETS has initiated a robust employer outreach effort to make it 
easier for companies to find and hire veterans by leveraging federal, 
state, and local resources.
    VETS' Office of Strategic Outreach (OSO) was chartered to develop a 
National-to-Local engagement and integration strategy that informs and 
coordinates action among government, private sector and local 
communities to enhance veterans' employment opportunities and leverage 
the national workforce system. OSO conducts engagements with federal, 
state, and local governments; private sector employers and trade 
associations; institutions of higher learning; non-profit 
organizations; and veteran service organizations to establish and 
develop a network that enables Service members, veterans, and families 
to successfully integrate into their communities. VETS also works 
closely with Joining Forces; organizations such as ``Warriors for 
Wireless,'' ``Troops to Truckers'' and ``Helmets to Hardhats''; and 
various trade associations and labor unions in developing industry-wide 
veteran hiring initiatives, to include apprenticeship programs. This 
office provides a valuable bridge between national and regional 
employers who are eager to commit to hiring veterans and workforce 
development staff at AJC who are tasked with building local employer 
relationships and assisting veterans in entering gainful employment.
    VETS has actualized the regional-to-local portion of the engagement 
and integration strategy by placing six Regional Veteran Employment 
Coordinators (RVECs) at our Regional Offices nationwide. The RVECs 
coordinate National-to-Local employment resources and expertise, 
through outreach to businesses, employer groups, veterans' 
organizations, state workforce partners and government agencies to 
promote veterans' employment and training opportunities, The 
partnerships and working relationships initiated and developed to 
facilitate veteran employment have been significant, with nearly 600 
employers now actively engaged in veteran hiring initiatives. In 
addition, OSO staff work with other federal departments to build 
veteran recruiting initiatives around entire business sectors through 
the Departments of Energy, Transportation, and Agriculture. As this 
capability matures OSO will increase its promotion of programs that 
help bridge the skills gap for veterans looking for civilian 
employment.
    VETS is working closely with federal and state partners to provide 
coordinated information and services to job seekers and employers as we 
seek to continually facilitate and develop meaningful employment and 
training opportunities for transitioning Service members, veterans and 
military families. VETERANS.GOV enables employers to directly contact a 
RVEC to request assistance in hiring veterans.
                               Conclusion
    VETS is committed to reducing veterans' unemployment nationally by 
helping each veteran through individual services - or as Secretary 
Perez likes to say, ``Helping each veteran where we find them.'' 
Creating opportunities for our veterans, transitioning Service members, 
and their families to thrive in the civilian economy through meaningful 
employment is a priority for VETS, for DOL, and for the entire 
Administration. VETS will continue to work with these partners to 
strengthen TAP and promote civilian recognition for skills gained in 
the military; to build strong partnerships with the state workforce 
agencies and the nearly 2,500 AJCs through JVSG and the Workforce 
Innovation and Opportunity Act (WIOA); and to work with employers of 
all sizes - from large national employers to small and medium sized 
businesses that are the backbone of America's economy, to help them 
hire veterans. By bringing together our partners for this important 
mission, VETS is helping to lead the way for our veterans to find 
meaningful civilian employment today and tomorrow.

                                 <F-dash>
                  Prepared Statement of Eric Eversole
    The U.S. Chamber of Commerce Foundation (USCCF) is a 501(c)(3) 
nonprofit affiliate of the U.S. Chamber of Commerce dedicated to 
strengthening America's long-term competitiveness by addressing 
developments that affect our nation, our economy, and the global 
business environment. USCCF presents a broad range of programs that 
promote a greater understanding of economic and public affairs issues.
    The Foundation conducts research and produces events on issues 
facing business now and in the future. Through its initiatives, the 
Foundation builds skills, drives innovation, and encourages growth.

    Good afternoon, Chairman Wenstrup, Ranking Member Takano, and 
distinguished members of the Committee. My name is Eric Eversole and I 
am the president of the U.S. Chamber of Commerce Foundation's Hiring 
Our Heroes program.
    Founded in 2011, Hiring Our Heroes is a nationwide initiative of 
the U.S. Chamber of Commerce Foundation which assists military 
veterans, transitioning service members, and military spouses in 
finding meaningful employment opportunities in a 21st century 
workforce. The program accomplishes this goal in a number of different 
ways, which include hiring fairs, multi-day on-base transition summits, 
campaigns in partnership with sponsor companies and nonprofit 
associations, and a robust suite of online digital resources.
    In March of this year, we celebrated our five-year anniversary, and 
we are proud to announce that since our program's launch, we have held 
more than 1,000 hiring events in the United States and around the 
world. From those hiring events alone, we've confirmed nearly 30,000 
military veteran and spouse hires in the civilian workforce. This does 
not include the hundreds of thousands of other meaningful connections 
that our program has made for job seekers through our various other 
resources, such as workshops, training programs, our online properties 
and more.
    The past several years have been a time of tremendous growth in the 
military hiring community, as private sector companies have admirably 
stepped up their hiring efforts for veterans and military spouses. When 
Hiring Our Heroes was first started more than five years ago, the 
employment outlook for veterans and military families was incredibly 
bleak. In many ways, the nation was in a crisis situation with regards 
to the employment struggles faced by so many individuals who had 
sacrificed so much for our country. However, with the business 
community meeting the challenge of finding jobs for this population, 
the unemployment rate for them has continued to drop precipitously.
    This has resulted in what is currently the lowest unemployment rate 
yet for military veterans at approximately four percent. There are, 
however, segments of the military community which continue to struggle. 
For example, post-9/11 veterans under the age of 25 face an 
unemployment rate that is higher than the national average. Military 
spouses also face a high unemployment rate of anywhere between 20 and 
30 percent, depending on the demographic. Couple that with the fact 
that more than 200,000 service members make the transition off of 
active duty annually, and it becomes very clear that there is still a 
great deal of work to be done.
    We know that hiring veterans is not just the right thing to do for 
the country, but it makes good business sense. Veterans bring 
incredible value in both the tangible and intangible skills to 
companies who hire them, from extensive training backgrounds in their 
military occupational specialties to the less concrete characteristics 
such as loyalty, discipline, and a work ethic that is not rivaled 
elsewhere in the economy - all being crucial to a productive work 
environment.
    We also recognize that this is not solely an economic issue for our 
country, but a national security concern. If young Americans believe 
that their service adds a stigma to them when entering the workforce 
and not an accolade, it will be more difficult to recruit high-quality 
people into the next generation of the all-volunteer force.

Background on Hiring Our Heroes

    When Hiring Our Heroes was first created, we had a very simple 
mission - carry out traditional hiring events, and connect with state 
and local chambers to find opportunities for military job seekers 
across the country.
    Although we know that some veterans and their families are still 
struggling, the landscape itself has changed, and we have had to adapt 
our operations in accordance with that change to continue our 
effectiveness in what we do. We've become more strategic in our 
approach and programs, and more focused on not only finding jobs for 
these individuals, but ensuring that they are finding the right jobs.
    Knowing that part of this strategic approach encompasses a broad-
based effort to engage the private sector, in 2012, together with 
Capital One, we launched the ``Hiring 500,000 Heroes'' campaign to 
secure half a million commitments by various employers to hire veterans 
and military spouses. Once businesses who joined this program 
committed, we worked with them to translate those commitments into 
hires. We're proud to say that in June of 2015, we surpassed the 
500,000-hire mark for veterans and military spouses who were hired as a 
result of this initiative. Ultimately, companies have committed to 
hiring a total of more than 700,000 veterans and spouses as part of 
this.
    Hiring Our Heroes also developed and continued to improve our 
robust array of digital tools and online resources for both job seekers 
and employers. With support from our generous sponsors, including 
Toyota and USAA, we provide tools such as the Personal Branding Resume 
Engine, My Career Spark for military spouses, the Employer Roadmap, 
Fast Track, and others free of charge for all users, whether job seeker 
or employer. All of these state-of-the-art online tools are designed to 
ensure that our target audiences have easy access to the most up-to-
date information and best practices when they enter into this unique 
and often challenging environment.
    Lastly, we know that the military spouse population faces its own 
unique set of challenges when searching for employment. While a service 
member will typically only transition off of active duty once in his or 
her career, military spouses make multiple transitions while serving 
alongside their service member, making it all the more challenging to 
find stable and meaningful employment.
    Our Military Spouse Program, which has been in place since 2012, is 
incredibly active in this community, engaging spouse-specific hiring 
fairs, networking receptions, roundtable discussions, workshops, and 
more.
    Of course, we must recognize that all of our work is made possible 
by the generous donations of the companies on our Military Spouse 
Employment Advisory Council, to complement its counterpart, the Veteran 
Employment Advisory Council.

What Employers Can Do

    Companies of all sizes approach our organization on a regular basis 
facing the issue of being incredibly enthusiastic about their desire to 
hire veterans, but not knowing exactly where to start.
    For employers who are eager to get started but find themselves 
experiencing trouble navigating the complicated landscape of the 
military hiring community, we have a number of different programs and 
resources that they can engage and utilize. Our online tool Employer 
Roadmap is multi-faceted resource which gives companies a customized 
experience based on their experience level to help them learn best 
practices and programs for recruiting, hiring, and retaining veterans 
and military spouses. Information and guidance on how to develop 
complete military hiring strategies and military-friendly job 
descriptions, as well as understanding what the military community 
brings to companies in the way of experience is easily available 
through this wide-ranging web site.
    Our Business and State Engagement department is our direct link 
into the business community, and works to engage our partner companies, 
as well as our expansive network of state and local chambers across the 
country to ensure that they are constantly dialed in to our program and 
have the access that they desire to military job seekers.
    With the economic landscape looking better in the last year to 
veterans, there are some companies who may assume that the entire 
problem of veteran unemployment has been solved and ask: ``What else is 
there to do?''
    To answer that question, it is worth revisiting that while great 
strides have been made over the last several years, there still exists 
a significant struggle for certain segments of the veteran population 
to find employment. We encourage companies to start military affinity 
groups within their organizations, as we have seen that mentors, 
resource groups, and personal relationships are key to breaking down 
barriers to success and critical to retaining veterans for longer 
periods of time. For some companies, this is a new concept, while 
others, such as Coca-Cola, have had longstanding veteran affinity 
groups and programs which date back decades.
    Also, as mentioned earlier, our belief is that it is imperative for 
companies to not forget about military spouses when developing these 
internal initiatives. Simply put, if you have a military hiring 
strategy that focuses solely on veterans, you only have half of a 
strategy.
    Additionally, we cannot stress enough the importance for companies 
to market, promote, and most importantly ``sell'' their industry to the 
military community. Many military job seekers have misperceptions or 
outdated concepts of what a certain industry may actually look and feel 
like in the 21st century. While we encourage them to reach outside 
their comfort zone and explore job opportunities with which they may 
not be familiar, it is crucial for companies to be active in this space 
to ensure the job seeker population is educated on what being a part of 
a certain job field actually means. Our digital resource Fast Track is 
a place for job seekers to inform themselves on new and fast-growing 
industries, as well as a platform for companies to post their jobs in a 
live feed fed through the National Labor Exchange.
    Our combined effort to focus on both the job seeker education as 
well as the employer side will continue as our program evolves in the 
months and years ahead. And we will continue to position ourselves as 
leaders in this community to the further benefit of all of our target 
audiences.

Partnerships

    Creating and maintaining valuable partnerships for our program has 
been crucial to our success. Hiring Our Heroes is in a unique position 
in the U.S. Chamber of Commerce Foundation to have influential 
connections to thousands of state and local chambers, which provides us 
with tremendously effective grassroots teams across the country to 
engage with military job seekers in their communities. The enormous 
impact that we have seen at every level has been extremely beneficial 
to our mission.
    Our program has also been able to develop key partnerships with the 
U.S. Department of Veterans Affairs, the U.S. Department of Labor, the 
U.S. Department of Defense and many of its services, as well as the 
Small Business Administration, in order to expand our messaging base 
and reach the service member and military spouse population, connecting 
employers to them wherever they are in the world.
    The relationships that we maintain with other nonprofit 
organizations within this military hiring community have been integral 
to our success as well. Our work with groups such as the Institute of 
Veterans and Military Families, Student Veterans of America, Blue Star 
Families, Got Your 6, and many others has furthered our reach and 
strengthened our ability to provide networking and training 
opportunities for job seekers, and make valuable connections for them 
with employers who are hiring.
    One of our greatest achievements of last year was when we partnered 
with the George W. Bush Institute's Military Service Initiative as well 
as a broad array of public, private, and nonprofit partners to create 
the Veteran Employment Transition Roadmap, a comprehensive guide for 
transitioning service members and military veterans to help them become 
better equipped to navigate the complex landscape that they will 
encounter when leaving the military to pursue new careers. This 
document, which is available in hard-copy as well as online, is unique 
in that there is nothing else like it that exists in this military 
employment space. It outlines best practices and checklists for job 
seekers to consider, as well as an overall list of resources that are 
available to them from across the public, private, and nonprofit 
sectors that are available to them when making this transition.

Moving ``Left of Transition''

    One of the key lessons we have learned over the last four years is 
that many of the challenges that military veterans face when 
transitioning off active duty is primarily due to a lack of 
preparation. Far too many service members have traditionally viewed 
transition not as a continuing process but as a single point in time 
when they simply pick up their DD-214 papers and leave the military. 
Not surprisingly, in recent years, more than 50 percent of service 
members were unemployed within 15 months of leaving the military, with 
no clear pathway to economic success.
    In 2014, a key effort of Hiring Our Heroes was our aggressive work 
to address this problem, by helping service members focus on moving 
left of transition, and starting the job search process earlier. When 
interfacing with service members, we compare this process to any 
evolution that they would encounter in the military. It is a process 
that requires a clearly-defined mission, preparation, execution, and 
ability to adapt and overcome as circumstances evolve.
    Working with our public, private, and nonprofit partners, we 
launched a series of multi-day, on-base transition summits aimed at 
reaching and empowering service members long before their last day on 
active duty. These summits are essentially one-stop-shops for service 
members as they learn what economic opportunity looks like for them in 
today's workforce, with panel discussions from industry leaders, 
breakout workshop classes, networking receptions, and ultimately a 
hiring fair to conclude the event.
    We are continuing this innovative approach to serving the military 
community throughout 2016, hosting 17 summits in the United States and 
internationally, providing job seekers with best-in-class resources for 
their transition process, and connecting them with employers (sometimes 
numbering in the hundreds) at each event that are searching for top 
military talent.
    Another pioneering effort which complements our summits is our 
model of attaching hiring events to professional sporting events, 
creating an expo. This series of events was launched in 2014 in 
conjunction with major professional sporting events, such as NBA 
basketball or Major League Baseball games. All military job seekers 
receive free admission to the hiring events and tickets to attend the 
game and/or special event. We have seen great success with these as a 
means to attract attention to our program, capitalizing on the high-
profile nature of the athletic teams or host organization to further 
our messaging reach with job seekers and employers.
    Lastly, we have critically important training programs which truly 
set us apart in this hiring community. Our Corporate Fellowship Program 
is a 12-week evolution that prepares service members for separation 
from the military through corporate education, extensive on-the-job 
training, and networking opportunities. At the completion of the 
program, service members have increased their marketability 
tremendously, giving them an added edge in an increasingly competitive 
job market.
    Just as these events are geared towards making sure job seekers 
understand the opportunities that are available to them, these are also 
services to our business population as well. We have learned over the 
years that companies want access to veterans and military families 
sooner in the transition process, and coming up with new and creative 
ways to make that possible is how we meet that demand signal.
    Most importantly, while there are many groups and avenues that can 
be helpful in this effort, we recognize that it is incumbent upon job 
seekers to own their transition. There is a sea of goodwill that exists 
for transitioning service members and military spouses, but ultimately, 
it is their responsibility to start far enough in advance and dedicate 
the time and effort necessary to have a successful transition.

                                 <F-dash>
                 Prepared Statement of Terry D. Howell
    Thank you, Chairman Wenstrup, Ranking Member Takano, and Members of 
the Subcommittee for inviting us here today to address important issues 
associated with veteran employment. Today, I will discuss what 
Military.com and Monster Worldwide are doing to assist service members 
in their transition to the civilian sector as they seek employment 
opportunities.
    My name is Terry Howell; I am the Sr. Director for Strategic 
Alliances and Editorial Operations for Military.com. I joined the 
Military.com team in 2003 after 20 years of service in the U.S. Coast 
Guard. My last assignment prior to retiring from the Coast Guard was as 
a Career Development advisor, where I worked active duty, reservists 
and their families on issues related to their career, including 
education, advancement, and transition.
    I am currently responsible for Military.com's editorial operations, 
reaching more than 7 million unique visitors a month and our efforts to 
build alliances to support veterans and veteran programs. In addition, 
I have worked on transition related products for both the Department of 
Defense and the Department of Veterans Affairs.
    Military.com was founded in 1999 with a significant mission: 
connect service members, veterans, and their families with all the 
benefits of service and with each other.
    Today, we're the largest military and veteran membership 
organization - 10 million members strong. Military.com's free 
membership connects servicemembers, military spouses, veterans and 
their families to all the benefits of service and related resources- 
government benefits, scholarships, discounts, lifelong relationships, 
mentors, legislation, news, and much more.
    We are proud that our Military.com team is made up of more than 60 
percent veterans, including active members of the National Guard, 
reserve, and military spouses.
    In 2004, Military.com joined forces with Monster Worldwide to 
change the playing field for career and educational opportunities for 
servicemembers, veterans, and military spouses. Monster's vision of 
bringing people together to advance their lives, has proven to be a 
great fit with Military.com's ``members first'' ethos and our goal of 
connecting the military community to all the benefits of service. The 
acquisition did not change our original mission; it has served to 
increase the scope of what we have been able to accomplish, while 
maintaining our core values of providing a vital service to those who 
serve or have served.
    In 2006, Military.com worked with Simon and Schuster to publish the 
Military Advantage, which continues to serve as the most comprehensive 
guide to military and veteran benefits, and military career 
information. Today, the book is published through the US Naval 
Institute Press in Annapolis.
    In the mid-2000's, Military.com was contracted by the Department of 
Defense to develop an online transition assistance program known as 
TurboTap. The program enabled service members (active and reserve 
component) to use a simple guided process to create their own 
Individual Transition Plan (IDP) which they could print or revisit 
online at any point in the future.
    In 2008, Military.com and Monster Worldwide were selected to 
contribute to the creation of a set of tools for the VAforVets and 
later the FedsforVets websites. The centerpiece of this project was our 
Military Skills Translator, which remains the only skills translator/
job matching tool that incorporates the full breadth of a service 
member's career experience and training. Users can include their 
collateral duties, multiple occupation codes, special assigned duties, 
and previous civilian employment when using this tool. In its 
application for the VAforVets website, the Military.com skills 
translator also serves as the first step in a resume building process, 
which helps veterans explain their military skills in civilian friendly 
terms.
    Through the years, Military.com and Monster Worldwide have remained 
focused on supporting service members, veterans, and families through 
the transition process, the subsequent job search, and finally their 
gainful employment. During this time, we have created an online 
transition center which helps veterans track their progress toward a 
successful transition; published an annual ``Veteran Talent Index 
(VTI),'' which serves as a report on the state of veteran employment; 
and provided direct and indirect support of job fairs, hiring events 
and other transition assistance workshops.
    Through our VTI and continued communication with our members and 
employers, we have identified some key issues which impact veteran 
employment. The roots of the issues are communication and commitment. 
Most vets site an inability to adequately explain their experience in a 
way that employers can fully understand. Conversely, many employers 
site a lack of understanding of a veteran's military work experience 
and where they fit may in their organization.
    In response to this need, we developed products such as our skills 
translator/job matching tool, which is currently being used by more 
than 60 companies and trade association. This is providing the tools to 
help veterans find jobs within individual companies and associations. 
To ensure we are part of the solution, we have gone so far as to 
provide these tools at no cost to non-profit organizations like the 
American Legion, the Enlisted Association of the National Guard, and 
the Veterans of Foreign Wars and at cost to trade associations like the 
Northern Virginia Technology Council. We are working to expand this 
list to include all the major veteran service organizations and non-
profit colleges and universities over the next few months.
    We have found that the level of commitment by employers to develop 
a veteran specific hiring processes, online veteran portals, and 
awareness campaigns has a direct impact on veteran employment. We have 
found that the companies that are most successful in hiring and 
retaining veterans are those that have instituted best practices for 
veteran hiring. For example, the companies which are recognized as the 
best employers for veterans, have developed specific veteran hiring 
processes and tools, trained their human resources staff and recruiters 
on how to review veteran resumes and the best techniques for 
interviewing veterans, and have created veteran friendly work 
environments.
    Early last year, we decided to do a top-to-bottom review of our 
website and veteran employment products, and came to the conclusion 
that what we may have seen as ``good enough'' was no longer enough to 
meet the future needs of transitioning service members.
    Based on our findings, we have overhauled our website in an effort 
to improve veteran awareness of our vet hiring programs and products. 
We also have taken steps to improve the job search and application 
process, with the goal of increasing the propensity of veteran job 
seekers to fully complete online job applications, before clicking 
away. We have added new areas of content to provide employer tools, 
motivation, and resources to encourage them commit to hiring veterans. 
We will soon launch our new mobile Military Transition app, which we 
have developed with help of Citibank. The app will provide personalized 
checklists and alert notifications to remind service members of where 
they are on the transition timeline and exactly which tasks need to be 
completed at any given point in their transition. In addition, we will 
soon launch a campaign to recognize and celebrate employers who choose 
to make a pledge to hire veterans. This will include a public listing 
of employers and a badge which will acknowledge their pledge to hire 
vets.
    Our current suite of veteran hiring products includes the 
following:

    <bullet>  The Military Skills Translator and Job Matching Tool
    <bullet>  The Transition Center and Mobile Transition Center App
    <bullet>  The Job Fair and Transition Workshop Finder, which 
provides a list of upcoming events based on distance and date range
    <bullet>  The Military.com/Monster Job Finder, which is a quick 
means for veterans to search jobs offered by military friendly 
employers.
    <bullet>  Veteran Talent Portals, which are featured webpages 
highlighting specific jobs with specific employers
    <bullet>  The Veteran Talent Index, an annual report on veteran 
employment that includes survey results reflecting employer and veteran 
points of view
    <bullet>  VSO Veteran Career Portals, which includes customized job 
finders and our Skills Translator)
    <bullet>  Employer Specific Veteran Employment Products, with 
companies such as Home Depot, Lowes, Brinks, Citibank, Coca-Cola, etc.

New Initiatives and Future Efforts:

    Military.com and Monster are currently working to make further 
improvements and enhancements to our skills translator. We are 
developing an education factor to help graduating student veterans find 
gainful employment - with the very large number of veterans choosing to 
go school many will face a second transition, this time from full-time 
student to a professional in the civilian work force. With the addition 
of academic, training, and certification elements to the skills 
translator, student veterans will see an expanded list of career 
opportunities.
    In addition, we plan to implement enhancements to the skills 
translator that will eventually enable veterans, service members, and 
career counselors to use our platform as a career-path tool, providing 
service members and veterans the tools and necessary information to 
help them select the right geographic location, academic degree, job 
training, and/or certification required to achieve their civilian 
career goals.
    As you may know, Monster Worldwide recently announced the 
acquisition of Jobr, the leading mobile job discovery app. This 
acquisition is an important step in delivering on our ongoing mission 
to create and deliver the best recruiting media, technologies and 
platforms for connecting jobs and people. As we move forward we will be 
examining how the app can be used to best impact the military and 
veteran communities.
    We are keenly aware that we cannot solve the veteran employment 
issue solely through the use of online tools and products--nor can it 
be solved in a vacuum. That is why we are taking steps to change the 
employment and recruitment industry paradigm from fiercely competitive 
to a collaborative ``veteran-focused'' approach.
    For example, we are working with several companies, agencies, and 
organizations to use our online presence to promote their products and 
events. We are also working on ways to use our products and tools to 
make other organizations offline events more effective. We are 
committed to building partnerships and alliances with employers, 
service organizations, and others to help use our reach, expertise and 
products to make a positive and lasting impact on the lives and careers 
of veterans of all ages and all eras.
    It is our belief that the employment issues facing veterans is not 
caused by a single factor, nor is there a single solution. The issues 
range from unfounded concerns about post-traumatic stress and a lack of 
understanding of what a veteran brings to workforce, to the disconnect 
between military training and civilian certification processes.
    In conclusion, it is our genuine hope and firm belief that the 
private sector, federal, and state agencies can work together to 
increase awareness, provide tools and incentives, and align military 
training with civilian certification so the veteran unemployment rate 
can fall below that of their non-veteran peers. We firmly believe the 
key to solving veteran employment issues is through continued 
innovation and collaboration.
    I would like to thank the Subcommittee for this opportunity to 
present this testimony and share what Military.com and Monster 
Worldwide are doing to make a positive impact on veteran employment. 
More importantly, I would like to thank the members of this committee 
and their staffs for their hard work and dedication to ensuring our 
veterans have every opportunity to make a successful transition to the 
civilian workforce. With overall employment numbers improving, it would 
be easy to move on, but thankfully you have remained steadfast in your 
resolve to make sure ALL veterans are given the best opportunity for 
success.
    Mr.Chairman and Members of this Subcommittee, this concludes my 
statement.

                                 <F-dash>
                   Prepared Statement of LeRoy Acosta
    Chairman Wenstrup, Ranking Member Takano, and Members of the 
Subcommittee:
    On behalf of DAV (Disabled American Veterans) and our 1.3 million 
members, all of whom were wounded, injured or made ill in wartime 
military service, I am pleased to testify at this hearing concerning 
``Examining 21st Century Programs and Strategies for Veteran Job 
Seekers.'' DAV is dedicated to a single purpose: empowering veterans to 
lead high-quality lives with respect and dignity.
                        DAV's Employment Program
    DAV recognizes that veterans, especially ill and injured veterans, 
continue to face challenges in obtaining employment. In 2014, DAV 
empowered America's veterans by establishing a National Employment 
Program and committed more than $800,000 to its startup so the program 
could begin work immediately.
    The need for DAV's Employment Program is overwhelming. According to 
the Department of Labor (DoL), the unemployment rate for male veterans 
is 4.5 percent compared to female veterans at 5.4 percent. \1\ Tens of 
thousands are now making the transition from military to civilian life. 
About 250,000 service members transitioned in 2015, and by 2017, we 
expect that number to be close to one million.
---------------------------------------------------------------------------
    \1\  http://www.bls.gov/news.release/vet.nr0.htm Obtained June 7, 
2016.
---------------------------------------------------------------------------
    That is why we partnered with RecruitMilitaryr and Veteran 
Recruitingr. Through these partnerships, DAV has sponsored a total of 
128 all veteran career fairs in cities nationwide as well as 3 virtual 
events, to connect veterans with employers who are committed to hiring 
them. Since the inception of DAV's Employment Program, 54,347 attendees 
have connected with 7,373 exhibitors that resulted in 15,734 job 
offers. I invite you to see the All Veterans Career Fair schedule at 
jobs.dav.org.
    Addressing veterans' unemployment head-on, DAV's employment program 
connects transitioning active duty, guard and reserve members, and 
veterans and their spouses with employers. DAV recognizes the value, 
talent, education and work ethic that veterans add to the workforce. We 
connect veterans with employers nationwide who are actively seeking the 
unique talents veterans bring to the workplace.
    In order to give veterans every advantage in the transition 
process, we incorporated our VA benefits and claims experts into these 
career fairs. DAV's service officers are a professional team of 
advocates, all veterans themselves, who help veterans and their 
families access the full range of benefits available to them. DAV helps 
veterans and their families successfully file claims for VA disability 
compensation, rehabilitation and education programs, pensions, death 
benefits, employment and training programs.
    The DAV Employment Program provides many resources outside of our 
sponsored All Veteran Career Fairs. At jobs.dav.org, visitors will find 
a job-search board with more than 800,000 employment opportunities. We 
average about 5,000 visits to our webpage every month.
    Jobs.dav.org will soon expand and improve, to feature additional 
employment and educational resources, webinars, and will promote 
certain employers who have demonstrated that hiring veterans is part of 
their business strategy.
    DAV encourages job seekers to visit jobs.dav.org to access the 
Employment Assistance Request Form, participants will receive updates 
on employment-related news, and their information is accessible to 
employers who are seeking their talents.
           National Veterans Transition Services, Inc. REBOOT
    Another program focused to reduce the unemployment rates for 
veterans is the National Veterans Transition Services, Inc. (NVTSI) 
REBOOT. NVTSI specializes in military to civilian reintegration through 
their signature REBOOT program. Since 2010, the mission of REBOOT has 
been ``to assist veterans in making a successful transition from 
military service to civilian life through applied behavioral 
education.'' A non-profit, San Diego-based, veterans service 
organization, NVTSI asserts that in order to achieve a higher return on 
investment for veterans, there is a need to re-socialize them via a 
reverse boot camp (REBOOT) to address the gap in services.
    REBOOT is an innovative, evidence-based, intensive three-week 
workshop that addresses the root causes of reintegration failure from a 
holistic perspective using cognitive structuring to help participants 
redefine their personal identity, purpose in life, and desired 
occupation - from the inside out. The REBOOT WorkshopsT are conducted 
across the nation and the curriculum includes one week covering 
personal transition, one week on lifestyle transition, one week of 
career transition, and supportive follow-up services. NVTSI has become 
a national leader in veteran transition, achieving 95 to 97 percent 
employment/education success and a 93 percent retention rate one year 
after graduation. NVTSI has also proven it can decrease recidivism 
among incarcerated veterans by 28 percent. \2\
---------------------------------------------------------------------------
    \2\ Presentation by Maurice Wilson, MCPO, USN (Ret) Co-Founder/
President/Executive Director National Veterans Transition Service, Inc. 
aka REBOOT. https://www.dropbox.com/s/c81hswb2kb0xecj/REBOOT--
Evaluation--Report.pdf?dl=0
---------------------------------------------------------------------------
    Over the past six years REBOOT has conducted 82 workshops and 
graduated over 1,450 service members and veterans and gained national 
recognition by the White House as a Champion of Change. \3\ Their model 
and system of delivery has been validated independently by the 
University of San Diego. REBOOT has also successfully piloted six all-
female veteran workshops to focus their program on comprehensive 
reintegration services for women veterans.
---------------------------------------------------------------------------
    \3\  White paper: Developing a System to Overcome Failure of Social 
Reintegration for Military Veterans - NVTSI 2016. Adapted from Helping 
Veterans Successfully Transition from the Battlefront to the Homefront! 
By Brianna Bendotti, Grey Hoff, Samantha Kahoe, and Victoria Schaefer-
Ramirez Pepperdine University Graduate School of Education and 
Psychology Fall 2015.
---------------------------------------------------------------------------
    Transition Assistance Program
    For men and women alike, a key requirement for a successful 
transition away from military service is the ability to establish 
satisfying, stable employment as a civilian. Most military members make 
this transition successfully, but some struggle. With the United States 
facing a significant drawdown of about a million service members by 
2020 \4\ , it is critically important that employment programs and 
services are effective at helping men and women in the military make 
this transition smoothly.
---------------------------------------------------------------------------
    \4\ U.S. Government Accountability Office (2014). Transitioning 
Veterans: Improved Oversight Needed to Enhance Implementation of 
Transition Assistance Program. Washington, DC. GAO-14-144
---------------------------------------------------------------------------
    The challenge of making the transition from military service to 
civilian employment has been widely discussed. \5\ For many in the 
military, seeking civilian employment may be the first time they have 
developed a resume or interviewed for a job. For most, it can be a 
challenge to translate the skills, knowledge, and experience gained in 
military assignments into language accessible to a civilian hiring 
audience. In particular, specialized training and certificates gained 
during service do not generally translate into certification or 
licensure requirements for an equivalent position in the civilian 
sector. Finally, military members who move frequently or have been 
absent on deployments may not have a local network of civilian contacts 
who can help identify employment opportunities where they live.
---------------------------------------------------------------------------
    \5\ U.S. Department of Defense, Defense Business Board (2013). 
Employing our Veterans Part II: Service Member Transition. Washington, 
DC.
---------------------------------------------------------------------------
    In recognition of the need to help service members to transition 
effectively to civilian life, Congress established the original 
Transition Assistance Program (TAP) in 1991. \6\ In 2013, TAP was 
redesigned to standardize the opportunities, services, and training 
that service members receive to prepare them to pursue their post-
military career goals. The redesigned TAP includes an outcome-based 
curriculum known as Transition GPS (Goals, Plans, Success). Transition 
GPS covers all departing service members. It is intended to help 
service members identify their post-separation education, financial and 
employment goals. After participating in the structured program, 
service members are expected to have clear goals for employment or 
education and will know where and how to access the services that can 
help them achieve those goals.
---------------------------------------------------------------------------
    \6\ Transition Assistance Program 1991 (P. L. 101-510) S 502 (a)(1)
---------------------------------------------------------------------------
    DAV's unprecedented report, Women Veterans: The Long Journey Home, 
found there are no comprehensive studies that evaluate the 
effectiveness of the TAP program. The hallmark of adult learning is 
that adults seek out and absorb information when they perceive that 
they need it, not necessarily when it is presented. Some transitioning 
service members may not be primed to absorb TAP training pre-separation 
but would be more receptive once they are actively seeking help and 
assistance 6-12 months later. \7\
---------------------------------------------------------------------------
    \7\ https://www.dav.org/wp-content/uploads/women-veterans-
study.pdf. Obtained June 11, 2016.
---------------------------------------------------------------------------
    The DoL has conducted research on how to best serve the employment 
needs of women veterans and provide them with many customized programs, 
communications and supports; however, despite these targeted efforts, 
the unemployment and under-employment rates for women veterans are 
slightly higher than their male counterparts. \8\ While DoL found no 
employment challenges that are exclusive to women veterans, it 
indicated that the demographics of this group make it more likely they 
are in subpopulations that have higher unemployment rates. \9\ 
Innovative outreach efforts to ensure women are aware of these services 
are necessary. Additionally, employment assistance will become even 
more pressing as the Department of Defense (DoD) executes its current 
downsizing plan. Some service members who may have expected to complete 
full military careers will be thrust, with little preparation, into 
civilian communities and job markets.
---------------------------------------------------------------------------
    \8\ U.S. Dept. of Labor, Economic News Release, "Employment 
Situation of Veterans - 2014." Mar. 18, 2015
    \9\ U.S. Dept. of Labor, Fact Sheet, "Women Veterans: Equally 
Valued. Equally Qualified. Equally Served." Retrieved Apr. 2015.
---------------------------------------------------------------------------
    According to a recent review of the program by the Government 
Accountability Office (GAO), \10\ comprehensive data on participation 
rates and information on the effectiveness of the training is not 
readily available and post-transition outcome data is limited. The data 
that is gathered has not been publicly released with an analysis of 
outcomes and satisfaction by gender. It is estimated that 200,000 women 
are expected to leave the military over the next four to five years, 
therefore, it is imperative that we improve our efforts and support for 
women veterans' employment.
---------------------------------------------------------------------------
    \10\ U.S. Government Accountability Office (2014). Transitioning 
Veterans: Improved Oversight Needed to Enhance Implementation of 
Transition Assistance Program. Washington, DC. GAO-14-144
---------------------------------------------------------------------------
    While there is no direct evidence that this transition is any 
different for women than it is for men, women veterans' unemployment 
rate remains stubbornly high and women have voiced frustration with the 
transition process. For instance, women veterans were less likely than 
men (32 percent compared to 47 percent) to believe the military was 
doing enough to ease transitions to civilian life, and more women (18 
percent) than men (7 percent) doubt their military skills will be 
useful in the civilian job market. \11\ Other studies found that women 
felt they had been led to believe that military training would be more 
valuable than it is in their search for employment \12\. \13\
---------------------------------------------------------------------------
    \11\ DiJulio, B., Deane, C., Firth, J., Craighill, P., Clement, S., 
Brodie, M. (2014) After the Wars: Survey of Iraq & Afghanistan active 
duty soldiers and veterans. Kaiser Family Foundation. Personal 
communications DiJulio, B.
    \12\ Business and Professional Womens Foundation.(2007).Women 
Veterans inTransition. Washington, DC.
    \13\ Thom, K. B., E (2011). Chicagoland female veterans; a 
qualitative study of attachment to the labor force. American Institute 
for Research National Center on Family Homelessness.
---------------------------------------------------------------------------
    Delegates to our more recent National Convention adopted Resolution 
No. 136 urging Congress to monitor the review of the Transition GPS 
program, its workshops, training methodology and delivery of services, 
and the collection and analysis of course critiques; and to ensure the 
inclusion of DAV and other veterans service organizations in workshops, 
in order to confirm the program is meeting its objective, and follow up 
with participants to determine if they have found gainful employment.
    Moreover, DAV Resolution No. 138 calls on Congress to support 
licensure and certification of active-duty service personnel, which 
would eliminate employment barriers that impede the transfer of 
military job skills to the civilian labor market. The DAV calls on 
Congress to engage in a national dialogue, working closely with the 
Administration generally, and DoD, the Department of Veterans Affairs 
(VA), and DoL specifically, as well as state governments, employers, 
trade unions, and licensure and credentialing entities to establish a 
clear process so military training meets civilian certification and 
licensure requirements for the states in which veterans choose to live 
once they leave the military.
    This resolution was reaffirmed in Women Veterans: The Long Journey 
Home report, which recommends that the DoL should work closely with 
state certification organizations to translate military training and 
certification to private sector equivalents. Furthermore, DAV 
recommended that VA and DoD establish a grant program to accelerate 
these efforts.
       Women Veterans Population and Women Veterans Unemployment
    DAV's Women Veterans: The Long Journey Home provides a roadmap to 
support women veterans on their transition from military service to 
veteran status. Women veterans have remained invisible for far too long 
to the federal, state and local programs that have a mission to support 
them. The need will become even more pressing as the DoD executes its 
downsizing plan and those who expected full military careers are 
suddenly thrust, with little warning, into the ill-prepared civilian 
community. The time has come to push for change in reintegration and 
readjustment support for women as they transition to post-military 
life. This report and the ongoing advocacy of DAV aims to trigger 
urgent actions from VA, DoD and other stakeholders, for an integrated 
approach to address the transition needs of women veterans, and an 
overhaul of the culture, values, and services of the federal system. 
\14\
---------------------------------------------------------------------------
    \14\ Women Veterans: The Long Journey Home, page 3.
---------------------------------------------------------------------------
    Until 1973, women remained a very small minority of the Armed 
Forces population due to legislation that imposed a two percent cap on 
women's participation in the military. When those gender caps were 
lifted, women entered military service at unprecedented rates. Today 
women constitute approximately 20 percent of new recruits, 14.5 percent 
of the 1.4 million active duty component and 18 percent of the 850,000 
reserve component. Almost 280,000 women served Post-9/11 during the 
Global War on Terrorism in Operations Enduring Freedom, Iraqi Freedom 
and New Dawn in Afghanistan and Iraq. \15\
---------------------------------------------------------------------------
    \15\ Women Veterans: The Long Journey Home, page 8.
---------------------------------------------------------------------------
    Current transition programs and treatments for relationship 
building, family reintegration, prevention of intimate partner violence 
and support for family functioning are based on civilian programs and 
lack evidence of effectiveness in military and veteran populations. 
Transition support programs that are designed for prevention, treatment 
and support for women and their families are needed. \16\
---------------------------------------------------------------------------
    \16\ Women Veterans: The Long Journey Home, page 6.
---------------------------------------------------------------------------
    The report findings and recommendations cover the broad range of 
transition needs of women veterans in culture change, health care, 
military sexual trauma, disability compensation, justice, family and 
community, education, transition assistance, employment, and housing. 
The DAV report provides the 27 key recommendations in these areas to 
drive immediate action and change.
    The reasons underlying this persistently higher rate of 
unemployment among women veterans are not definitively known. However, 
characteristics such as a younger age, being unmarried or divorced, 
lower educational attainment and having children at home are associated 
with a higher rate of unemployment and are also prevalent among women 
veterans.
    Even when these factors are controlled, Post-9/11 women veterans 
and National Guard women veterans have higher rates of unemployment 
than other groups. Given this constellation of factors working against 
employment success for some women veterans and their demonstrated 
higher rates of unemployment, it is important for all of the partners 
working on veteran transition challenges to identify the specific and 
unique needs of women and institute specialized programs and outreach 
for them.
                           Operation Reinvent
    Operation Reinvent founder Julie Lewit-Nirenberg commented that the 
DAV report, Women Veterans: The Long Journey Home, was a valuable 
resource in determining what she could do to help women veterans' 
transition from service. \17\
---------------------------------------------------------------------------
    \17\ Julie Lewit-Nirenberg, founder of Operation Reinvent, phone 
interview June 10, 2016.
---------------------------------------------------------------------------
    A program focused to reduce women veteran unemployment is the New 
York City based, Operation Reinvent; a non-profit organization, founded 
in 2013, dedicated to providing expert guidance and resources to help 
transitioning military women identify career paths that suit their 
skills, education, goals and interests; Thus, unleashing the power of 
women veterans.
    The Operation Reinvent Career Transition and Empowerment Program 
incorporates hands-on professional image development, stress 
management, year-long mentoring and real-time job search opportunities. 
\18\ The program occurs in-service prior to discharge and focuses on 
transitioning women service members, because women are known to not 
identify as veterans upon discharge from service. \19\ Workshops 
connect women directly with experts in human resources, workforce 
initiatives and job interviewing. \20\
---------------------------------------------------------------------------
    \18\ http://operationreinvent.org/mission/our-plan/ obtained June 
11, 2016.
    \19\ Julie Lewit-Nirenberg, founder of Operation Reinvent, phone 
interview June 10, 2016.
    \20\ Amanda Dolasinski Staff writer. http://www.fayobserver.com/
military/workshop-helps-female-veterans-transition-into-civilian-
careers/article--4e74aa7c-bc26-53be-a7ee-30fd265677c7.html obtained 
June 11, 2016.
---------------------------------------------------------------------------
    An Operation Reinvent workshop occurred June 8-9, 2016 at the 
Soldier Support Centers in Fort Bragg, North Carolina and Fort 
Campbell, Kentucky with 50 women soldier attendees at each location. 
The first day of the Workshop was webcast to both locations in real-
time from CBS Studios in New York City. Nationwide webcasts in each 
time zone are being planned.
    Mr. Chairman, DAV appreciate the opportunity to provide testimony 
for this hearing to outline just a few innovative and effective 
employment transition programs. We look forward to working with this 
Subcommittee to ensure that the men and women who stood up for America 
have the tools, resources and opportunities they need to competitively 
enter the job market and secure meaningful employment. I would be 
pleased to address any questions you, or members of the Subcommittee 
may have on the topics covered in my testimony.

                                 <F-dash>
                    Prepared Statement of Greg Call
Introduction

    Chairman Wenstrup, Ranking Member Takano, and members of the 
Subcommittee, thank you for inviting me to testify today. My name is 
Greg Call and I am the Head of LinkedIn's Veterans Program. The 
Veterans Program connects 2.1 million veteran and military members of 
LinkedIn with the networks, insights, and skills they need to succeed 
in the workplace.
    LinkedIn is a professional network with over 433 million 
individuals around the world, and over 128 million in the United 
States. Our network connects the world's professionals to help make 
them more productive and to transform the ways companies recruit, 
develop, and retain talent.
    Our vision is to create economic opportunity for every member of 
the global workforce. To achieve that vision, we're building the 
world's first Economic Graph--a digital map of the global economy that 
includes every member of the global workforce and their skills, all 
open jobs, all employers, and all educational institutions (more 
information about the Economic Graph is available at www.linkedin.com/
economic-graph). We share labor market insights from the Economic Graph 
with policymakers and other stakeholders across the globe to help 
create greater economic opportunity. And, as I'll discuss later in my 
testimony, LinkedIn is using information from the Economic Graph to 
help veterans find economic opportunity.
    Connecting veterans to economic opportunity isn't just my job; it's 
also a personal commitment. I became a Marine Corps officer in 2008 at 
the age of 28. I transitioned out of the Marine Corps in 2012 after two 
deployments and over four years of honorable service. Like many 
transitioning servicemembers, I really had no civilian professional 
identity or professional network after leaving the military. LinkedIn 
enabled me to re-invent myself as a veteran entrepreneur and empowered 
me to connect with people and organizations to support my new mission 
in life. Through this platform, I built a strong professional identity 
and a powerful new support system including two mentors who were 
instrumental in my successful transition.
    When the opportunity arose to lead LinkedIn's Veterans Program, I 
once again heard a call to duty. I wanted those Marines and every 
veteran to share the same successful transition story as me. This was 
my chance to become part of that solution.
    The goal of my testimony this afternoon is to provide you with an 
overview of LinkedIn's work with veterans and to discuss three points 
in particular:

    <bullet>  Connecting Veterans to Opportunity. As I'll describe more 
fully below, LinkedIn is working to equip veterans with information and 
tools to find economic opportunity. We are doing this by, among other 
things, providing free one-year subscriptions to our job seekers and 
free one-year access to online courses through Lynda.com, a leading 
online learning platform that helps anyone learn business, technology, 
and creative skills.
    <bullet>  Release of LinkedIn Veterans Insights Report. LinkedIn 
recently released its first annual report on veterans in the workplace. 
This report, based primarily on aggregated LinkedIn member data, 
highlights the top industries in which veterans are working, the skills 
which they are bringing to industries, and the top employers of 
veterans. We hope these insights can be a resource for the federal 
government, veteran non-profits, and veteran program managers as they 
further develop programs designed to continue the reduction in veteran 
unemployment.
    <bullet>  Recommendations to the Subcommittee. LinkedIn has been 
working with the Transition Assistance Program (``TAP'') to assist 
servicemembers with access to post-military opportunities. Among other 
things, we recommend adoption of professional opportunity tools like 
LinkedIn earlier into servicemembers' life cycle to ensure they have 
strong networks by the time they depart from the military.

Connecting Veterans to Opportunity

    LinkedIn's Veterans Program is working to set veterans up for 
success in transition and helping to close the gap between military 
service and civilian employment by empowering veterans to build 
professional identities, professional networks, civilian careers, and 
workplace skills. Our website for the Veterans program is available at 
veterans.linkedin.com.

    To do this, we are focusing on four key areas:

    Professional Identities. LinkedIn allows its veteran members to 
build professional identities through a digital profile. A digital 
profile is a living expression of a veteran's experience, education, 
skills, awards, volunteer causes, and recommendations (which includes 
digital media videos, articles and posts). We understand that veterans 
sometime face challenges in developing their digital profile and 
therefore we created a ``LinkedIn for Veterans'' tutorial video that 
includes recommendations for translating their professional military 
identity to a professional civilian identity. We also distribute these 
training materials through partnerships with veteran service 
organizations and also through TAP classes.
    Professional Networks. As a part of our training, LinkedIn also 
focuses on helping veterans to use these networking tools. In our 
recent survey of veteran members, leveraging professional networks was 
the number one method that veterans utilize to find employment. 
Additionally, our groups program on LinkedIn has been extremely 
popular, especially the Veteran Mentor Network, which brings 100,000 
transitioning veterans and civilian professionals together for online 
mentoring.
    Civilian Careers. LinkedIn offers one year of free job-seeker 
subscription for veterans. Veterans can appear at the top of a 
recruiter's list, search within companies for recruiters and hiring 
managers, and communicate directly with recruiters and managers through 
InMail. They can increase the visibility of their LinkedIn profile, and 
conduct advanced searches to identify fellow veterans in their desired 
field of choice.
    Workplace Skills. LinkedIn's latest addition to training includes 
our online learning platform Lynda.com. We now offer a one-year free 
Lynda.com account to all our veteran members. With over 6,000 available 
courses including our ``LinkedIn for Veterans'' course, Lynda.com has 
helped students, leaders, IT and design professionals, project 
managers, and others build software, creative, and business skills. 
Lynda.com can be deeply impactful because it allows veterans to build 
valuable skills and fill common skills gaps that they face in 
transition or during career progression.

Release of LinkedIn Veterans Insights Report

    In May, the LinkedIn Veterans Program team leveraged our Economic 
Graph to generate and share insights into the professional identities 
of LinkedIn's veteran community. This report is primarily based upon 
the veterans who are on LinkedIn and offers additional insights into 
the unique skill sets of veterans entering the workforce.
    We have also provided copies of the report to members of the 
Committee and your staff. We hope that this report and others like it 
can be used to better inform veterans about the paths that are 
available to them, and inform employers about the high level of talent 
that characterize the veteran applicant and leadership pool on 
LinkedIn.
    To create this report, our team analyzed the professional 
experience, skills, education, and behaviors of over 2.1 million 
military personnel and veterans that are members of LinkedIn, as well 
as veteran employer data. Below are some of the major highlights of the 
report.
    Leadership and Entrepreneurship. Today's veterans are high-demand 
talent, thriving and leading organizations. In fact, more than 186,000 
veteran professionals identify themselves as executives, vice 
presidents, partners, founders, or owners on LinkedIn. There are over 
42,000 veteran Vice Presidents alone on LinkedIn, and over 64,000 
owners of companies.
    Leading Industries and Metro Regions. Information technology is the 
number one industry where veterans who are LinkedIn members are 
employed, followed by defense and space and government administration. 
The top metro area for veterans are: Washington, D.C.; New York, New 
York; Dallas-Ft. Worth, Texas; Los Angeles, California; Atlanta, 
Georgia; Seattle, Washington; San Diego, California; Houston, Texas; 
Norfolk, Virginia; and Chicago, Illinois.
    Education and Training. Our data shows that veterans on LinkedIn 
are highly educated individuals across the workforce. Over 81 percent 
of veterans who have listed their education on LinkedIn have at least a 
bachelor's degree, while 31 percent have a master's degree and 5 
percent have earned a doctorate degree. Overall, as noted above, 
servicemembers gravitate towards business and information technology 
degrees. In terms of training, on-the-job training is veterans' number 
one method for learning new skills; 61 percent received on-the-job 
training, 50 percent got an additional degree, and 31 percent were 
self-taught.
    Professional Networking. Networking is the single most important 
way that veterans find career opportunities. Interestingly, on average, 
veterans and servicemembers have 26 percent more connections than non-
veteran LinkedIn members. This networking is critical, especially 
because opportunities for veterans in the private sector are often 
different from what they did in the service. In fact, two-thirds of 
professional veterans state that they work in positions that are not 
similar to what they did in the military, and that it is imperative 
that they reach out to their networks to understand how to gain access 
to those jobs.

Recommendations to the Subcommittee

    We appreciate the opportunity to share our recommendations to the 
Subcommittee on how to better connect veterans to opportunity, and we 
look forward to working with you on these matters.
    Overall, we have two general recommendations. First, we believe 
that LinkedIn and other 21st Century career tools should be offered to 
servicemembers well before they transition to civilian life. Second, we 
believe that veterans should be encouraged to connect to programs at 
the time that they separate and also well beyond the time that they 
leave the service. Training and learning are lifelong endeavors and we 
recommend that the military support and promote skills-based learning 
and help transitioning servicemembers identify the training programs 
that teach those skills and lead to strong career outcomes at all 
stages of a veteran's professional life.

Career Tools Before Transition to Civilian Life

    With respect to career tools before a servicemember transitions, 
LinkedIn recommends implementing a proactive strategy to veteran 
transition rather than waiting until servicemembers are being 
discharged or following their discharge. We can preempt transition 
challenges by integrating LinkedIn and other career tools during their 
time in the service. As servicemembers progress through their military 
career, they graduate from military education courses and serve in a 
variety of billets. Each one of those courses and billets has some kind 
of direct application to their professional identity. And as 
servicemembers progress through their military careers, they will meet 
and build relationships with civilian professionals. LinkedIn is an 
outstanding tool for servicemembers to create a robust and valuable 
professional story to tell civilian employers and to maintain those 
critical relationships that they will need to leverage during their 
transition.
    Currently, transitioning servicemembers are provided basic 
information about LinkedIn during the employment segment of the TAP. 
While driving awareness of LinkedIn is essential, a more effective 
approach during the TAP would be providing practical application 
sessions to teach the best use of the platform. For instance, we 
provide tools such as the ``LinkedIn for Veterans'' Lynda.com course to 
facilitate practical application. This 60 minute tutorial provides 
skills for building an outstanding professional identity, improves job 
search techniques and enhances workplace skills, and could be easily 
integrated into the TAP curriculum. We also recommend that 
servicemembers utilize our job-seeker subscription for veterans, access 
to Lynda.com courses, both of which are free for one-year and available 
at any time after separation from the service.

Skills Training Beyond the Transition From the Military

    In a similar vein, we believe that policymakers and other 
stakeholders should support skills training programs not just as 
transitional support but also as part of lifelong learning. This 
training should start before the transition out of the military.
    Specifically, the military can help servicemembers by: (1) clearly 
mapping the skills gained in each role and helping servicemembers track 
that through their LinkedIn profiles; (2) promoting skills-based job 
descriptions by civilian employers; (3) helping transitioning 
servicemembers identify the gap between their existing skills and those 
needed for their desired civilian role; and (4) helping transitioning 
servicemembers identify the training programs that teach those skills 
and lead to strong career outcomes.
    It is equally important to encourage veterans to continue 
upskilling and to connect to programs that help them do that. There are 
several programs throughout the U.S. that focus on teaching members of 
the workforce new skills. One recent example is Skillful 
(www.skillful.com), a Markle Foundation initiative to help workers in 
Colorado and Arizona with high school diplomas or limited college 
education acquire new skills to advance their careers. This is 
important because over 40 percent of workers in Colorado and nearly 50 
percent of workers in Arizona have a high school diploma and some or no 
college education. Yet 44 percent of the more than 468 recruiters and 
hiring managers we surveyed in Colorado and Arizona in February said 
it's hard to find people with the right technical skills. As a result, 
companies have a hard time hiring and are less productive, thereby 
stunting economic growth. In both states, we're working with local 
bases and veterans programs to connect servicemembers and veterans to 
Skillful, its career coaches, and its digital resources.
    As part of this effort, LinkedIn has developed Training Finder 
(www.linkedin.com/training), a new product that helps job seekers 
acquire new skills and advance their careers. This tool shows them 
relevant training programs in their area; which programs are affiliated 
with employers; whether or not they're accredited; the program's 
employment rate, cost, and duration; the skills that the program will 
teach them; the jobs they'll be qualified for when they complete the 
program; and the estimated salary. Our goal is for these insights to 
help individuals select the training program that will teach them the 
skills they need to get the job they want. Combining LinkedIn jobs 
tools and the Training Finder can help veterans identify the gap 
between their current skill set, the skills needed for their ideal 
role, and then identify the best-fit program to acquire those skills. 
We believe that this new product could be a great tool for education 
and employment counselors within transition offices, and we look 
forward to training counselors on how to use Training Finder.

Conclusion

    As Florent Groberg, the Congressional Medal of Honor recipient, 
recently noted:

    In 2012, my lifelong passion for serving in our armed forces was 
cut short. Four years later, through the power of networking, a 
steadfast mindset and the act of seeking mentors...I am living proof of 
the power of LinkedIn. It is through this platform that I have made 
hundreds of connections with men and women that otherwise, I would have 
never had the opportunity to meet. This should be the story of every 
U.S. Military veteran.

    We at LinkedIn are deeply inspired by Florent and we stand ready to 
work with you and each of the Members of the Congress on leveraging our 
tools and capabilities to expand opportunity for every veteran. Doing 
so is our duty and our mandate, and it is fundamentally tied to our 
mission and our vision at LinkedIn. Thank you.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
